<html>
<title> - THE ROAD MAP: DETOURS AND DISENGAGEMENTS</title>
<body><pre>[Senate Hearing 108-723]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-723

                THE ROAD MAP: DETOURS AND DISENGAGEMENTS

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                              JULY 20, 2004

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


                    U.S. GOVERNMENT PRINTING OFFICE
97-377                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman
CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
MICHAEL B. ENZI, Wyoming             RUSSELL D. FEINGOLD, Wisconsin
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
LAMAR ALEXANDER, Tennessee           BILL NELSON, Florida
NORM COLEMAN, Minnesota              JOHN D. ROCKEFELLER IV, West 
JOHN E. SUNUNU, New Hampshire            Virginia
                                     JON S. CORZINE, New Jersey

                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, opening 
  statement......................................................     9

Dodd, Hon. Christopher J., U.S. Senator from Connecticut, 
  prepared statement.............................................    23

Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     1

Miller, Mr. Aaron David, president, Seeds of Peace, Washington, 
  DC.............................................................    47
    Prepared statement...........................................    51

Ross, Hon. Dennis, director and Ziegler Distinguished Fellow, The 
  Washington Institute for Near East Policy, Washington, DC......    32
    Prepared statement...........................................    38

Said Aly, Dr. Abdel Monem, visiting research fellow, Saban Center 
  for Middle East Policy, The Brookings Institution, Washington, 
  DC.............................................................    40
    Prepared statement...........................................    43

Satterfield, Hon. David M., Deputy Assistant Secretary of State, 
  Bureau of Near Eastern Affairs, U.S. Department of State, 
  Washington, DC.................................................     3
    Prepared statement...........................................     4

                                 (iii)

  

 
                THE ROAD MAP: DETOURS AND DISENGAGEMENTS

                              ----------                              


                         TUESDAY, JULY 20, 2004

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met at 9:33 a.m., in room SD-419, Dirksen 
Senate Office Building, Hon. Richard G. Lugar (chairman of the 
committee), presiding. Present: Senators Lugar, Hagel, Chafee, 
Brownback, Biden, Dodd, Boxer, and Bill Nelson.


        opening statement of senator richard g. lugar, chairman


    The Chairman. This hearing of the Senate Foreign Relations 
Committee is called to order.
    The committee meets today to examine the new dynamics in 
the Middle East and their impact on the Israeli-Palestinian 
peace process.
    Last February, our committee held a hearing on the Road Map 
that challenged the notion that progress toward peace could not 
be achieved before the United States election in November. 
Advancement of the peaceful two-state solution envisioned in 
the Road Map is urgently needed by the Israelis and the 
Palestinians and is critical to our own success in the global 
war on terrorism. Al-Qaeda and other terrorist organizations 
use the Israeli-Palestinian conflict to enlist fresh recruits 
to conduct terrorism across the globe. It offers enormous 
complications. We should continue to pursue without delay every 
opportunity to resolve this longstanding conflict.
    The violent Palestinian uprising against the Israelis since 
September 2000 has cost both sides dearly. Nearly 1,000 
Israelis and 3,000 Palestinians have died in the cycle of 
violence during the past 3 years. The economies of both Israel 
and the Palestinian Authority have been decimated. In Israel, 
exports have fallen from $2.7 billion in 2000 to $1.3 billion 
in 2003. The Palestinians' gross domestic product dropped 40 
percent during the period, and unemployment rates have soared 
from 15 percent to between 20 and 30 percent in the West Bank 
and Gaza.
    Recent developments in the region, however, have created 
the possibility for movement in the peace process. Israel's 
plan for unilateral withdrawal from Gaza and some West Bank 
settlements has changed calculations about what is possible. 
Egypt has taken a more active role in coordinating the 
disengagement plan with the Palestinians. Other nations, such 
as Jordan and Turkey, also have offered to facilitate the 
process. Today we want to examine in detail how the United 
States and the international community can take advantage of 
the Israeli disengagement plan and other openings to make real 
progress on the Road Map.
    The United States must determine how we can strengthen 
Israelis and Palestinians who are willing to support the 
disengagement plan. Surveys indicate that 65 to 70 percent of 
the Israeli population supports the disengagement plan, but 
others in Israel consider it ``rewarding Palestinian 
terrorism.'' Internal Israeli politics have been thrown into 
upheaval over this question. Prime Minister Sharon has risked 
his government to keep the disengagement plan alive, and is 
trying to form a new coalition with the Labor party to gain the 
Israeli parliament's approval of the plan. Internal conflicts 
among the various Palestinian factions also are intensifying as 
they cannot agree on who takes control when the Israelis leave.
    The Egyptians, fearing instability on their border, 
recently have renewed their efforts to work with the 
Palestinians on a cease-fire, as well as to help restructure 
Palestinian security forces. The Egyptians cannot succeed in 
these efforts alone. The United States and other members of the 
Quartet--the European Union, Russia, and the United Nations--
must do more to buttress Egyptian efforts and ensure that the 
disengagement plan can be implemented. Jordan, Saudi Arabia, 
and perhaps other Arab nations also should contribute funds or 
personnel to help train and equip the Palestinians to take 
authority over areas from which the Israelis withdraw.
    A sustainable peace settlement is likely to require 
additional international resources. We should explore how 
organizations such as the World Bank might develop a 
comprehensive settlement package as an incentive for the 
Palestinians and Israelis to move forward with the Road Map. In 
addition, the United States must work with our allies to stop 
the flow of weapons and financing, particularly from Syria and 
Iran, to those who continue suicide bombings and terror 
attacks.
    Although many recent developments have the potential to 
help the peace process, the International Court of Justice's 
non-binding advisory opinion condemning the Israeli security 
fence is not one of them. This decision does not help move the 
peace process forward, because it does not consider the 
realities of terrorism on the ground.
    We welcome today two distinguished panels to discuss 
ongoing efforts to advance peace. First, we will hear from 
Ambassador David Satterfield, the Deputy Assistant Secretary of 
State for the Near Eastern Affairs Bureau. He was recently 
confirmed by the Senate as our new Ambassador to Jordan.
    On our second panel, we will hear from Ambassador Dennis 
Ross, director and Ziegler Distinguished Fellow of the 
Washington Institute for Near East Policy. Ambassador Ross has 
written a new book on his experience as the chief Middle East 
peace negotiator for both President George H.W. Bush and 
President Bill Clinton, and we look forward to his insights. 
Also on our second panel, we welcome Dr. Abdel Monem Said Aly, 
director of the Al-Ahram Center for Political and Strategic 
Studies in Cairo and a visiting fellow at the Saban Center for 
Middle East Policy at the Brookings Institution; and Mr. Aaron 
Miller, president of Seeds of Peace and formerly Senior Advisor 
to the Secretary of State for Arab-Israeli negotiations.
    We look forward to these insights and recommendations of 
our distinguished witnesses. I will call now upon the first of 
these, Ambassador Satterfield. Would you please proceed.

   STATEMENT OF HON. DAVID M. SATTERFIELD, DEPUTY ASSISTANT 
   SECRETARY OF STATE, BUREAU OF NEAR EASTERN AFFAIRS, U.S. 
                      DEPARTMENT OF STATE

    Ambassador Satterfield. Thank you, Mr. Chairman. I would 
like permission to have my written remarks entered into the 
record, and I have a brief statement I would like to make.
    The Chairman. Your comments will be published in full, and 
that will be true for each of our witnesses today.
    Ambassador Satterfield. Thank you, Mr. Chairman.
    I am very glad to have this quite timely opportunity to 
speak with members of the committee. I have just returned from 
a trip to the region where I met with Egyptian, Jordanian, 
Israeli, and Palestinian officials to discuss those issues 
which you raised in your opening remarks. It is clear, as you 
have noted, that we are, once again, at a potential watershed 
moment in the Middle East peace process. We are indeed seeing 
more positive activity than we have witnessed for almost a 
year, as Israel refines its own plan to withdraw from Gaza, and 
the international community strives to ensure that this 
withdrawal leaves Gaza able to move forward in an orderly 
fashion toward economic viability and prosperity and the 
critical issues of security and political reform.
    Security, of course, Mr. Chairman, is the No. 1 issue. The 
increasingly chaotic security and political situation in Gaza 
over the past few days only underscores, even more strongly 
than before, the need for genuine, not merely rhetorical steps 
for security reform and leadership transformation in the 
Palestinian Authority. Cosmetic changes in leadership, cosmetic 
changes in the structure of security services are not enough. 
What counts, the only thing that matters, are changes on the 
ground.
    In order to reestablish, or to establish for the first time 
in a great while, true law and order in Gaza, in order to put a 
lasting stop to terror and violence, the Palestinian Authority 
must consolidate the security forces under a single, empowered 
and accountable leadership and propose credible clean 
candidates to head those services.
    Resolving the Israeli-Palestinian conflict remains one of 
this administration's highest foreign policy priorities. Prime 
Minister Sharon's plan to disengage from Gaza offers a real 
opportunity, a genuine chance, to restart progress on the Road 
Map and move the parties forward toward realization of 
President Bush's vision of two states, Israel and Palestine, 
living side by side in peace and security.
    As plans for Gaza disengagement move forward, the issue 
before the United States, the Quartet, and the broader 
international and regional communities are how to prepare the 
Palestinians to take the necessary steps to ensure the smooth 
and orderly transition in Gaza so necessary for lasting success 
not only during but the day after disengagement.
    Egypt is indeed working, Mr. Chairman, very closely with 
both Israelis and Palestinians and planning and preparing for 
the quite difficult security aspects of Gaza withdrawal, and as 
I noted at the outset, recent events make the necessity of 
these preparations crystal clear. Both sides, Israelis and 
Palestinians, have welcomed Egypt's helpful role, and the 
United States and the Quartet have expressed our full support 
for Egypt's engagement.
    The international community is focusing on continuing 
efforts to provide assistance and to promote Palestinian 
reform. Although Palestinian progress in these areas has been 
extremely slow, there have been some successes, significant 
successes, in the areas of fiscal and budget accountability and 
transparency, and the Palestinian Authority has announced its 
intention to begin phased municipal elections before the end of 
the year. We are ready to assist the Palestinian Authority in 
the preparations necessary to hold these free and fair 
elections.
    International aid efforts to the Palestinians continue to 
be crucial. The humanitarian plight of the Palestinian people, 
as you noted, Mr. Chairman, is very real and has in some cases 
been exacerbated by the building of the Israeli separation 
barrier. Israel has the unquestioned right to defend itself. 
However, we do have concerns. When the construction of this 
barrier appears to prejudge final borders, it leads to 
confiscation of Palestinian property or imposes humanitarian 
hardships on Palestinian lives and livelihoods. The recent 
Israeli High Court of Justice ruling that portions of the 
barriers route around Jerusalem must be altered to ease those 
hardships on Palestinians show that Israel itself recognizes 
these issues. This ruling is binding on the Israeli Government 
unlike the recent International Court of Justice opinion to 
which you referred.
    Gaza disengagement, rather than the Road Map per se, has 
been the focus of attention since the beginning of this year. 
That disengagement, along with practical steps to reform the 
institutions of the Palestinian Authority, has the real 
potential to reenergize the peace process and get the sides 
back on track. Disengagement, conducted properly with 
appropriate support from the regional and international 
community, does offer a chance to move the parties back to a 
political process closer to realization of the ultimate goal to 
which the Road Map is a path and to which each side has 
committed themselves, two states living in peace and security.
    Thank you, Mr. Chairman. I will be happy to take your 
questions.
    [The prepared statement of Ambassador Satterfield follows:]

            Prepared Statement of Amb. David M. Satterfield

    Thank you, Mr. Chairman. I'm glad to have this timely opportunity 
to speak with members of the Committee, as I was just in the region ten 
days ago. We are--once again--at a potential watershed moment in the 
Middle East peace process. We are seeing more activity and movement 
than we have seen for almost a year, as Israel refines its plan to 
withdraw from Gaza; and the Palestinians, along with the international 
community and regional partners such as Egypt, strive to ensure that 
this withdrawal leaves Gaza in a position to progress in an orderly 
fashion towards economic vitality, and security and political reform.
    Resolving the Israeli-Palestinian conflict remains one of this 
Administration's highest foreign policy priorities. Prime Minister 
Sharon's plan to disengage from Gaza offers a real opportunity to 
restart the Road Map and move the parties toward realization of 
President Bush's vision of two states, Israeli and Palestinian, living 
side by side in peace and security. For the first time ever, Israelis 
proposing to evacuate settlements from the West Bank and Gaza. It is an 
historic decision for Israel, and one President Bush fully supports. 
But it needs to be done in such a way that it is consistent with a 
process that leads to peace and security for Israel, and to a viable, 
contiguous, democratic state for the Palestinians.
    According to the disengagement plan, all settlements and certain 
military installations would be removed from Gaza, and four settlements 
would be removed from the northern West Bank. The Israeli Cabinet has 
approved this plan in principle. I don't want to underestimate the 
domestic difficulties still facing Prime Minister Sharon: he is 
currently engaged in discussions to secure the political base necessary 
to proceed with disengagement.
    As-plans for Gaza disengagement move forward, the issue before the 
U.S., the Quartet, and the broader international community is how to 
prepare the Palestinians to take the necessary steps to ensure a smooth 
and orderly transition in Gaza. We are engaged in intensive planning 
and discussion of practical matters of security, Palestinian political 
reform, and economic and humanitarian assistance.
    Security, of course, is the number one issue that needs to be 
addressed. The Quartet envoys met with Palestinian Prime Minister Qurei 
two weeks ago, and stressed to him the need to take concrete action, 
particularly on security, in order to seize the opportunity presented 
by an Israeli withdrawal from Gaza. In all honesty, I must tell you 
that there has been very little preparation or movement on the part of 
the Palestinian Authority to take these steps. But we will continue to 
push them, because as Israeli withdrawal from Gaza draws closer, it 
becomes increasingly vital that the PA be prepared to take over and 
maintain law and order and stability in Gaza.
    Egypt is working closely with both the Israelis and Palestinians in 
planning and preparing for Gaza withdrawal, particularly the difficult 
security aspects. Both sides have welcomed Egypt's helpful role, and 
the United States and the Quartet have expressed full support as well. 
The Egyptians have been very clear with the Palestinians on their 
expectations for security reform, and have pushed them to take those 
steps quickly. Egypt has also committed to provide training and 
assistance, including on the ground in Gaza, to the restructured 
Palestinian security services. In addition to this, Egypt has worked 
closely with Israel on the critical questions of Gaza border security. 
We are pleased at the level of cooperation the two sides have shown, at 
both the political and operational levels, and the trend is definitely 
going in the right direction. While recent cooperation between the two 
sides has been good, there is much more that needs to be done.
    The Quartet envoys also met this month with international 
representatives of the Local Aid Coordination Committee and the Task 
Force on Palestinian Reform to discuss their continuing efforts to 
provide assistance and promote Palestinian reform; and preparations are 
underway for a meeting in September of the Ad Hoc Liaison Committee of 
major donors to assess Palestinian Authority progress on reforms. 
Again, Palestinian progress in this area has been extremely slow, 
although there have been some notable successes in the areas of fiscal 
accountability and transparency, and in the implementation of a direct-
deposit payment system for all PA security service salaries. The PA has 
announced its intention to begin municipal elections sometime before 
the end of the year, and the U.S., along with the Quartet, is ready to 
assist the PA in the preparations necessary to hold free and fair 
elections. We would like to see the established independent election 
commission play a role in organizing and regulating this election 
process.
    Given the continued desperate state of the Palestinian economy in 
Gaza and the West Bank, international aid efforts are crucial. The 
humanitarian plight of the Palestinian people is very real and has, in 
some cases, been exacerbated by the building of the Israeli separation 
barrier. Israel has the unquestioned right to defend itself, however we 
do have concerns when the construction of the barrier appears to 
prejudge final borders, leads to confiscating Palestinian property, or 
imposes further hardship on Palestinians. Israel itself is starting to 
address this issue: the Israeli High Court of Justice ruled last month 
that portions of the barrier's route around Jerusalem must be altered 
to ameliorate the hardship it imposes on Palestinians. This ruling is 
binding on the Israeli government, unlike the recent International 
Court of Justice opinion that found Israel's separation barrier to be 
illegal. We have said from the beginning that this referral to the ICJ 
was inappropriate and was likely only to impede efforts towards a 
negotiated peace between Israelis and Palestinians. Our position on 
that has certainly not changed, and we are now eager to refocus 
attention where it should be--on Gaza withdrawal and practical steps to 
reform the institutions of the Palestinian Authority. These are the 
types of efforts that will reenergize the peace process and get the 
Road Map back on track.
    It is true that the Road Map has been stalled, with neither party 
having fulfilled its commitments under Phase I. Most crucially, the 
Palestinian Authority has not put a stop to violence and terror. 
Without an end to brutal acts such as suicide bombings, there can be no 
progress towards peace. Israel also has obligations under the Road Map, 
and has promised to fulfill the commitments Prime Minister Sharon made 
to President Bush at Aqaba last year to dismantle unauthorized outposts 
and establish parameters for a freeze on new settlement construction. 
The Deputy National Security Advisor met with PM Sharon last week in 
Israel, and Sharon reiterated his determination to dismantle 
unauthorized outposts and take steps to ease the humanitarian situation 
of the Palestinian population.
    Gaza disengagement, rather than the Road Map per Se, has been the 
focus of attention since the beginning of the year. Disengagement 
indeed offers a real opportunity to make progress in the seemingly 
endless quest for peace in the Middle East. However, it is also an 
opportunity to move back to a political process. Israeli disengagement 
from Gaza, done properly and with appropriate support from the 
international community, has the potential to move both parties to the 
conflict closer to realization of the ultimate goal to which the Road 
Map is a path: two states, living side by side in peace and security.
    Thank you. I'll be happy to take your questions.

    The Chairman. Thank you very much, Ambassador Satterfield.
    We have two distinguished panels today and therefore we 
will have rounds of questions with both. I would suggest with 
our first panel that we limit ourselves to 8 minutes this 
morning. Others may join us, and if there are additional 
questions, why, members may have a second chance.
    I will begin the questioning, Ambassador Satterfield, by 
asking you to try to sketch out for me and for others how this 
business of disengagement may leave the Palestinian territory. 
When the Israelis move out of areas who will be in charge? How 
can efficient, stable, secure governance occur?
    One answer is that the Palestinian Authority will do that. 
People will come in and assume their proper roles and provide 
this security. As a result, some would say that this is not 
that complex a question. The two-state situation happens. One 
state on one side and the other state on the other.
    But for some reason, there are a good number of witnesses--
we heard some in February--who do not believe that 
disengagement is this simple. This is why the question of Egypt 
or other nations is injected. For a while some other nations 
that are friendly to the Palestinian Authority may have to 
serve in a trusteeship function, although clearly with 
recognition that they will leave, and that they are not there 
as permanent trustees. They are there helping people for the 
moment. This may help shore up a Palestinian group that can, in 
fact, negotiate a two-state settlement, or a solution to the 
crisis, as opposed to what is often suggested on the 
Palestinian side, that there is no stable group that is really 
able to effect decisions, to come to agreements.
    Now, in your own mind's eye, how do you see this working in 
an optimum way? As Israeli settlers withdraw--and as we have 
both indicated, we applaud the courage of the Prime Minister in 
moving in that direction--it is a very controversial issue in 
Israel. At the same time, apparently that is the way things are 
going to move. How do things become secure territorially and 
stable and strong, so there is a negotiating partner to make an 
agreement?
    Ambassador Satterfield. Mr. Chairman, there are three 
principle issues that need to be addressed to ensure that both 
the conduct of disengagement or withdrawal from Gaza, whether 
on the military or civilian settler side, is successful, and as 
or more importantly, to ensure that the day after disengagement 
and withdrawal, what emerges in Gaza is a stable, sustaining 
entity from a security, political, and an economic standpoint. 
Those three areas, security, political structures, economic 
structures, are the critical areas of focus that we, the 
Quartet, and the international community have been focused upon 
with the Palestinians, with the Israelis, and on the security 
issue, with the principal actor right now, Egypt.
    To take security first, because that is the primary issue, 
that challenges, the successful stable conduct of disengagement 
and the day-after disengagement, it is quite clear that for 
Israel's unilateral decision to withdraw from Gaza to be a 
success, success in its conduct, success in its results, there 
has to be a stable environment on the ground. We very obviously 
do not have that stable environment today. That was true before 
the events of this past weekend. It is certainly true 
following.
    There needs to be a comprehensive end to violence and 
terror. There cannot continue to be targeting of Israelis, 
whether in Gaza or the West Bank or in any other points, if 
this process is to unfold to the benefit of both Israelis and 
Palestinians. And we do see it to the benefit of both sides.
    Egypt has been engaged as an interlocutor with the 
Palestinians, as well as with the Israelis, to try to see what 
is necessary, what it can do to bring about that establishment 
or reestablishment of security, bringing about of a 
comprehensive end to violence and terror through its work with 
the Palestinian factions. And in its work with the Palestinian 
Authority and its leadership, including Arafat, Egypt has 
sought to pass the exact message which we and others clearly in 
the Quartet have been passing.
    For the Palestinians' own sake today and for their future, 
for the sake of the goal of two states, which the President has 
espoused, there does need to be an end to violence and terror. 
For that to happen, the Palestinians have to take 
responsibility at long last for the situation on the ground.
    The Egyptians have endorsed and have strongly advocated the 
restructuring of Palestinian services from the many disparate 
branches that exist today into three primary services, a civil 
police, a national security force or internal security force, 
and an intelligence service, and to have clean leadership, 
which then responds to an empowered civil leadership in charge. 
Now, that sounds very simple, Mr. Chairman, but that has been a 
major challenge which we, the international community, the 
Quartet have been advocating unsuccessfully for quite a long 
while now. We very much hope that Egypt's efforts bring about 
the success that is so necessary on this issue.
    Egypt is prepared to do more than simply talk with both 
sides. Egypt is prepared to deploy forces to its side of the 
Gaza border to help address the issue of smuggling more 
effectively than has been done in the past. Egypt is also 
prepared--and both Palestinians and Israelis have welcomed this 
offer--to send trainers and advisors to Gaza itself once 
disengagement is being conducted. And these are very important 
steps on offer from the Egyptian Government. We wish them the 
best. But Palestinians, at the end of the day, Mr. Chairman, 
have to respond.
    Now, on the political side, there does, indeed, need to be 
a Palestinian leadership in Gaza which is capable and competent 
to assume control of events there as and after withdrawal of 
Israeli forces and with Israeli settlers occurs. Those 
structures do not exist today or they exist only in fragmentary 
and nascent form.
    We and our partners in the international community have 
been strongly urging on the Palestinians for years now the 
institutional and structural reforms necessary to prepare 
Palestinians not just for the ultimate goal of statehood, but 
for assumption of responsibility over their own affairs in 
areas where Israeli forces have withdrawn, as is the case now 
pending in Gaza and in the West Bank. And we will continue to 
do what we can to focus Palestinians and encourage and support 
Palestinians in that reform and leadership transformation 
process.
    Now, the final but by no means least important issue here 
is the question of economic stability in Gaza. The 
international donor community has been quite generous in the 
support that it has offered Palestinians over the years, but 
that support for the past 3 years has been largely focused on 
immediate humanitarian issues. We need to go back to providing 
support in a structured fashion for long- and medium-term 
infrastructure development, for the long-term economic 
viability of Gaza and the West Bank. We will be engaging with 
the donor community over the time ahead, particularly with the 
World Bank and the Ad Hoc Liaison Committee, which groups 
principal donors, to see that these efforts reach fruition. We 
are contemplating, Mr. Chairman, a meeting of the Ad Hoc 
Liaison Committee at the end of September to continue the focus 
of donors on these issues. If the situation on the ground 
permits from a security and a political standpoint, we would 
look at a major donor effort either at the end of this year or 
the beginning of next year to provide the necessary assistance 
in a structured, accountable manner for the Palestinians.
    The Chairman. How many people are in Gaza, and how many 
will be there after the Israeli settlers leave?
    Ambassador Satterfield. There are approximately 7,000 
Israeli settlers in Gaza today. The Prime Minister has proposed 
a complete withdrawal of all Israeli settlers and all Israeli 
settlements. What the disposition is of specific physical 
settlement infrastructure remains to be discussed and remains 
to be determined.
    The Chairman. But in the rest of Gaza, how many people? Are 
there other people or have the 7,000 occupied the whole 
territory?
    Ambassador Satterfield. The total is really civilian 
settlers present. There are a number of IDF deployments in 
Gaza. That is a number that fluctuates from time to time. The 
Prime Minister has said that in principle Israel would like to 
withdraw all of its military forces from Gaza. Whether in fact 
forces remain in a particular area adjacent to the Egyptian 
border or not is largely, Mr. Chairman, a product of what 
security arrangements are ultimately put in place.
    The Chairman. I thank you.
    I want to recognize now the distinguished ranking member of 
the committee, Senator Biden, for his opening statement.

           OPENING STATEMENT OF SENATOR JOSEPH R. BIDEN, JR.,
                             RANKING MEMBER

    Senator Biden. Thank you, Mr. Chairman. I would ask 
unanimous consent that my entire statement be in the record. I 
apologize. I was coming from another meeting.
    The Chairman. It will be published in full.
    Senator Biden. Mr. Chairman, our hearings, to state the 
obvious--and I imagine the witness has already indicated it--
take place in the backdrop of new turmoil in Gaza within the 
Palestinian leadership. A power struggle is underway, as 
competing factors vie for control ahead of Israel's withdrawal 
within the next year. And another Palestinian Prime Minister 
has come close to following on the heals of Abu Mazen by 
tendering his resignation because of Arafat's unwillingness to 
cede control, especially in security areas. Today reports 
indicated that he has reluctantly rescinded his resignation.
    The one bright spot possibly in an otherwise bleak picture 
is that Egypt is trying to prevent a security and political 
vacuum from emerging by demanding, as our witness has 
indicated, a consolidation of Palestinian security services 
under a new leadership, offering to train those forces and to 
station monitors in Gaza, and planning to beef up security 
along the border, and promoting a cease-fire and a dialog 
between the Palestinian factions.
    But in order to move forward with its commitment, my 
understanding is that Israel--and this is what I would like to 
talk to the witness about at the appropriate moment--has three 
basic demands, as I understand them: first, that there be a 
complete Israeli withdrawal from Gaza and that includes the 
security forces; second, that the Palestinians and Israelis 
agree on how to prevent provocative acts from leading to a 
cycle of escalation that would undermine Egypt's role; and 
third, that there is light at the end of the tunnel by firmly 
tying disengagement to implementation of the Road Map. I would 
like to hear from the Secretary on how the administration views 
these Egyptian ideas, assuming I have accurately portrayed 
them.
    Mr. Chairman, a solution in the Middle East is as obvious 
as it is elusive. We all know that any viable peace agreement 
will have a few key components. Israel will have to abandon 
most of the settlements on the West Bank and the Palestinians 
will not be able to exercise their right of return but to 
Palestine. That, it seems to me, is the core of the bargain. 
More than two-thirds of the people on both sides consistently 
say that they favor a two-state solution, but the problem is 
neither side seems to believe the other is committed to the 
means to accomplish that solution.
    Events in recent days demonstrate that the main obstacle to 
peace, at least in my view, is the absence of a responsible 
Palestinian leadership. But the unprecedented challenge to 
Arafat's leadership may offer--and I would like to talk about 
this as well--a possible opening to advance key political and 
security reforms which are critical to getting the peace 
process back on track.
    Last year our country and Israel missed another 
opportunity, in my view, by not supporting Prime Minister Abu 
Mazen more actively. Clearly he was prepared to challenge 
Arafat, but at the end of the day, he was discredited by his 
inability to deliver any improvement in the lives of ordinary 
Palestinians. That suited Mr. Arafat, in my view, just fine for 
it seems to me that he seems to thrive on the suffering of his 
own people.
    Mr. Chairman, the direction the Israeli-Palestinian 
conflict takes will have a direct bearing on the key strategic 
issues our country faces from the war on terrorism, to the 
promotion of democracy, to success in Iraq. And the stakes are 
very high.
    Yet, I do not see any commensurate level of urgency or 
sustained and consistent involvement by the Bush 
administration. My hopes were raised last year when President 
Bush traveled to the Middle East and put his personal prestige 
on the line. He appointed a diplomat to ``ride herd on the 
process.'' He cajoled. He rallied, and yes, he even bullied. 
And I supported him in all his efforts. For a few short months, 
there was hope, at least in my view, of progress, but then the 
interest level seemed to wane in the Middle East, which 
presents a formidable challenge to even full-fledged peace 
efforts that overwhelmed what soon became a half-hearted 
effort.
    Ever since, instead of American leadership creating new 
opportunities, events on the ground have driven our policy. 
Prime Minister Sharon took a bold initiative with his 
disengagement plan. Egypt steps in and works on a plan to fill 
the vacuum. And where is American diplomacy? It is not as if we 
have the luxury of time.
    Iraq's new government is struggling to establish its 
authority in the face of violence that continues unabated. 
Democracy promotion in the Middle East appears to be stuck as 
the two key regional players, Egypt and Saudi Arabia, stayed 
away from the G-8 summit, and the terrorists have found a gold 
mine of recruiting in the discontent and anger that spans the 
Arab and Muslim worlds.
    It seems to me we have to view the Arab-Israeli conflict in 
the context of this volatile strategic climate, and it explains 
why making progress has never been more important. I am not 
suggesting there is any easy solution to the Arab-Israeli 
conflict. If there were, it would be solved by now. Nor am I 
suggesting that American leadership alone can solve it. The 
Arab states, the Palestinians, our European friends, and the 
Israelis must step up to the plate, and they have not 
sufficiently done so in my view. But only American leadership 
can synchronize those efforts and begin to move this gigantic 
rock up the hill again.
    Promoting peace and securing Israel requires hard work day 
in and day out, as our witnesses can attest. And benign 
neglect, punctuated by episodic engagements, imperils America's 
strategic interest in the region. We have no choice but to be 
involved and the central element of my questions today to all 
the witnesses will be to what degree and how should we be 
involved. What should we, the United States, be doing more 
proactively, if anything, that we are not doing now?
    I thank the witness. I apologize for not being here at the 
opening of his testimony, and I look forward to hearing his 
answers to questions. I thank you.
    [The opening statement of Senator Biden follows:]

           Opening Statement of Senator Joseph R. Biden, Jr.

    Mr. Chairman, thank you for calling this hearing. I look forward to 
Secretary Satterfield's testimony.
    I'm also eager to hear from the second panel. Ambassador Ross led 
American diplomacy on the peace process for a decade. Aaron Miller was 
his colleague in that effort and continues to promote conflict 
resolution through the important work of Seeds of Peace. And Dr. Said 
Aly has been a long-time voice of reason as head of one of the Arab 
world's most respected institutions.
    Our hearing takes place against the backdrop of new turmoil in the 
Gaza Strip and within the Palestinian leadership. A power struggle is 
underway as competing factions vie for control ahead of Israel's 
planned withdrawal next year.
    And another Palestinian Prime Minister has come close to following 
on the heels of Abu Mazen by tendering his resignation because Chairman 
Arafat is unwilling to cede control, especially in the area of 
security. Today, reports indicate that he has reluctantly rescinded his 
resignation.
    The one bright spot in an otherwise bleak picture is that Egypt is 
trying to prevent a security and political vacuum from emerging by 
demanding a consolidation of Palestinian security services under new 
leadership, offering to train these forces and to station monitors in 
Gaza, planning to beef up security along the border, and promoting a 
cease-fire and dialog between Palestinian factions.
    But in order to move forward with its commitment, my understanding 
is that Egypt has three basic demands. First, that there be a complete 
Israeli withdrawal from Gaza. Second, that Palestinians and Israelis 
agree on how to prevent provocative acts from leading to a cycle of 
escalation that would undermine the Egyptian role. And third, that 
there is light at the end of the tunnel by firmly tying disengagement 
to implementation of the Road Map. I'd like to hear from Secretary 
Satterfield how the administration views these Egyptian ideas.
    Mr. Chairman, the solution in the Middle East is as obvious as it 
is elusive. We all know that any viable peace agreement will have a few 
key components--Israel will have to abandon most settlements in the 
West Bank, and Palestinians will NOT be able to exercise the right of 
return but to Palestine. That, it seems to me, is the core of the 
bargain.
    More than two-thirds of the people on both sides consistently say 
that they favor a two-state solution. The problem is that neither side 
believes the other one means it.
    Events in recent days demonstrate that the main obstacle to peace 
is the absence of responsible Palestinian leadership. But the 
unprecedented challenge to Chairman Arafat's leadership may offer a 
possible opening to advance key political and security reforms which 
are critical to getting the peace process back on track.
    Last year, our country and Israel missed another opportunity, in my 
view, by not supporting Prime Minister Abu Mazen more actively. 
Clearly, he was prepared to challenge Arafat, but at the end of the day 
he was discredited by his inability to deliver any improvement in the 
lives of ordinary Palestinians. That suited Mr. Arafat fine--for he 
seems to thrive on the suffering of his own people.
    Mr. Chairman, the direction the Israeli-Palestinian conflict takes 
will have a direct bearing on the key strategic issues our country 
faces--from the war on terrorism, to the promotion of democracy, to 
success in Iraq. The stakes are very high.
    Yet I don't see a commensurate level of urgency, nor sustained and 
consistent involvement from the Bush administration. My hopes were 
raised last year when the President traveled to the Middle East and put 
his personal prestige on the line. He appointed a diplomat to ``ride 
herd.'' He cajoled, he rallied, and, yes, he even bullied. And I 
supported him in all his efforts.
    For a few short months there was hope and progress. But then, the 
interest level seemed to wane, and the Middle East--which presents a 
formidable challenge to even full-fledged peace efforts--overwhelmed 
what soon became a half-hearted effort.
    Ever since, instead of American leadership creating new 
opportunities, events on the ground have driven our policy. Prime 
Minister Sharon took a bold initiative with the Disengagement Plan; 
Egypt steps in and works on a plan to fill the vacuum. Where is 
American diplomacy?
    It is not as if we have the luxury of time. Iraq's new government 
is struggling to establish its authority in the face of violence that 
continues unabated. Democracy promotion in the Middle East appears to 
be stuck as two regional players--Egypt and Saudi Arabia--stayed away 
from the G-8 summit. And the terrorists have found a goldmine of 
recruiting in the discontent and anger that spans the Arab and Muslim 
worlds.
    We have to view the Arab-Israeli conflict in the context of this 
volatile strategic climate. And it explains why making progress has 
never been more important.
    I am not suggesting that there is an easy solution to the Arab-
Israeli conflict. If there were, it would be resolved by now. Nor am I 
suggesting that American leadership alone can solve it. The Arab 
states, the Palestinians and our European friends must step up to the 
plate, and they haven't thus far, in my view. And the Israelis will 
have to meet their responsibilities as well. But only American 
leadership can help synchronize these efforts and begin to move this 
gigantic rock up the hill again.
    Promoting peace and securing Israel require hard work--day in and 
day out--as our witnesses can attest. Benign neglect punctuated by 
episodic engagement imperils American strategic interests in the 
region. We have no choice but to be involved.
    The, central question I will ask of all the witnesses is: to what 
degree and how should we be involved. What should we be doing pro-
actively that we are not doing now.

    The Chairman. Thank you very much, Senator Biden.
    Senator Chafee.
    Senator Chafee. Thank you, Mr. Chairman. Welcome.
    In your statement, Mr. Secretary, you said that ``Israeli 
disengagement from Gaza, done properly and with appropriate 
support from the international community, has the potential to 
move both parties to the conflict closer to realization of the 
ultimate goal to which the Road Map is a path: two states, 
living side by side in peace and security.''
    Now we have a ruling by the International Court--and I know 
the position of the administration. It should not even have 
been there. But nonetheless, we have our allies, Norway, the 
UK, Holland, China, Russia, all who sit on this court, advising 
us to be more involved in the construction or the route of this 
barrier.
    How do you reconcile your urging us to get the support from 
the international community in your statement in order to move 
the Road Map forward while not adhering to what they are saying 
on the International Court?
    Ambassador Satterfield. Senator, if I could respond first 
to Senator Biden's question. You had asked in the closing part 
of your question, Senator, what would we do, what should we do 
to best advance this process? What we should do is continue to 
articulate, as clearly, as explicitly as we can, directly to 
the parties through private conversation and publicly, the 
vision that lays out there for both sides of peace, lasting 
peace, and of genuine, enduring security and the pathway that 
takes them to that goal. We have done so. We have articulated 
not only the goal, two states, but the Road Map to that goal, a 
pragmatic, practical approach which requires both sides to 
engage in phased and sequential obligations and 
responsibilities, both to each other and to the achievement of 
the ultimate objective of a lasting, sustainable peace.
    Now, the parties themselves do, indeed, have the primary 
responsibility for taking the steps, and they are painful 
steps. They are steps that require courage and sustained 
leadership in order to be meaningful, in order to work. They 
have the prime responsibility, but we do have to remain 
engaged. Our diplomatic engagement has not wavered over the 
past months, over the past year since the President's 
disengagement in Aqaba and Sharm el Sheikh. We have been in 
touch not only directly with the parties on a continuing basis. 
In the course of the last month, Assistant Secretary Burns, 
Deputy National Security Advisor Hadley and I have all traveled 
to the region and there will be further such travel in the 
weeks and months ahead. But we have also remained engaged with 
our international and regional partners.
    Senator Biden. Was there a reason why Sharon did not see 
you?
    Ambassador Satterfield. The meeting was not sought. This 
was an operational meeting, Senator, to meet with Palestinian 
leadership both individually and with a Quartet combined 
meeting and to talk about technical issues relating to 
withdrawal with Israeli officials, and no other reason than 
that.
    We continue to be engaged with the international community, 
with our Quartet partners to assure a unified voice on the need 
for security steps, on the need for reform, and with Israel our 
message has been very clear. Israel too has obligations and 
responsibilities, humanitarian and political, including on the 
settlements issue, both steps toward a settlement freeze and 
the elimination of settlement outposts.
    These are not easy issues, Mr. Senator, as you referred to. 
They are difficult. But they need to be advanced because if 
Gaza withdrawal is to be successful, it must occur in a 
context, not alone. It cannot be Gaza first and Gaza last. Gaza 
withdrawal, as we have emphasized and will continue to 
emphasize, must be seen squarely in the context of return to 
progress on the Road Map toward the two-state vision, and we 
see that as possible. We see it as achievable, but it is going 
to require efforts by the Palestinians on security and 
leadership transformation. It is going to require efforts by 
Israel in Gaza and the West Bank that address the humanitarian, 
political, and economic issues that are so critical to the 
goals we are trying to see achieved.
    You have asked first, though, about Egyptian contributions 
to this policy. We believe Egypt is indeed a key player here on 
security, and we are committed to supporting Egypt's role. What 
does Egypt need? Egypt needs a secure environment in Gaza. It 
needs an environment in which whatever advisors or trainers it 
sends can do their work free of attack, free of danger. That is 
a goal we all support.
    The answer on how you achieve that situation is a 
meaningful cease-fire, a meaningful end to violence and terror, 
an end to the kinds of actions that precipitate a continued 
destruction of lives, continued destruction of property. We see 
it as doable. And Egypt is working in these months, prior to 
withdrawal, to see that that is achieved.
    The Chairman. Let me now just sort out the situation for a 
moment. I appreciate those excellent responses to my 
colleague's questions. We will restore to Senator Chafee his 
full time, and then just for the sake of argument, I will then 
recognize Senator Boxer, Senator Dodd, and Senator Biden on 
this side for additional questions, with Senator Hagel, 
intervening between these folks.
    Senator Chafee. They will follow me.
    The Chairman. Yes. Now, Senator Chafee, you are restored to 
your rightful place.
    Senator Chafee. Should I repeat my question? No.
    Ambassador Satterfield. Senator, we indeed need the support 
of the international community. We need it in two different 
ways. We need their positive engagement and support as we move 
ahead, to speak with a unified voice, not many disparate 
voices, about the need for the critical performance by the 
Palestinians on security and leadership. We need their support 
in our engagement with Israel in a way that encourages Israel 
to take the necessary steps to move forward. The Quartet is the 
embodiment of the international will on these issues, and we 
have been remarkably successful in our engagement with the 
Quartet over the course of the past 2 years in trying to close 
off the different voices, the disparate voices that so often 
led to confusion.
    But we need the international community's support in 
another way. We need an avoidance of the sorts of unprofitable, 
unconstructive efforts such as the International Court of 
Justice ruling that only complicate efforts to see peace 
achieved. Our position on the ICJ consideration of this case 
has been made very clear, and we had support from our critical 
partners in the international community on this before the 
court took this issue. We do not believe it is an appropriate 
issue to be addressed by the ICJ. The United States will not 
support any purported endorsement of that ICJ ruling and we are 
working with our partners, both in the Quartet and more 
generally, to mobilize a support against an unhelpful 
resolution in the General Assembly or an unhelpful, 
counterproductive resolution that may be brought to the 
Security Council.
    You had raised, Senator, the issue of the participation of 
judges from those countries that we have relied upon for 
support in this process. My understanding, Senator--and I will 
defer to our legal experts on this--is that those judges, once 
they are appointed to the ICJ, function in an independent 
fashion which does not necessarily reflect the foreign policy 
and the national policy of their countries of origin.
    Senator Chafee. Going back to Senator Biden's statement 
that a year ago, almost exactly a year ago, there was so much 
optimism coming out of Aqaba--and you alluded to it yourself--
and Abu Mazen coming here, and as Senator Biden said, we did 
not deliver for him so he could deliver to his people. I 
remember him coming a year ago and saying please help me, and 
he had three issues, the settlements, the continued expansion 
of the settlements, the construction of the barrier, the route 
of the barrier--it is not the construction. I want to make that 
clear. It is the route--and also the holding of prisoners 
without charges.
    At that time there was the cease-fire, the hudna, if you 
will, a 7-week period of no violence, relatively no violence. 
And now the International Court which is, as you keep 
mentioning, the Quartet--here they are--the United Nations, the 
European Community. Here we all are, and they are 14 to 1 
urging us to address the route of this barrier. It seems to be 
still difficult for us to make progress without taking this 
ruling into consideration. I know the Israeli court has ruled, 
but if it is still going to be built beyond the Green Line, I 
think that is where the controversy is.
    What is our official position on that, the building of it 
outside of the Green Line?
    Ambassador Satterfield. Senator, we have expressed strong 
concern over the routing of the fence where it impacts 
humanitarian or human issues, the lives of Palestinians, the 
livelihoods of Palestinians, where it produces the confiscation 
of Palestinian land, and when that course impacts, prejudges 
the outcome of permanent status resolutions.
    The Israeli High Court judgment is a significant event. It 
is being taken quite seriously by the Government of Israel, and 
while I would defer to them, in terms of the ultimate choices 
which they are now forced to make with respect to the routing 
of the fence, our hope is that the High Court judgment produces 
changes on the ground which rectify, which address these 
concerns which we and others have addressed for so long. Israel 
does, indeed, have the right to defend itself, including 
through construction of a security barrier. But where the 
course of that barrier has the impacts that I described, there 
are real concerns here, which the administration will continue 
to address.
    We do not see that the ICJ judgment is a constructive 
judgment. Indeed, we have significant problems on the substance 
of the judgment and the manner in which the court took on this 
issue. We believe the Israeli High Court, its decisions, and 
the response of the Israeli Government to those decisions 
offers the best potential for serious addressing of this 
question.
    Senator Chafee. That all having been said, we could argue 
some of those points, but if we are going to get the 
international community, as you say in your statement, on our 
side, is this not a factor? If we are going to have the 
Quartet, if we are going to have the international community 
helping us here, whether it is the Egyptians or anybody else 
that might not have been part of this ruling, do you not think 
we have to be stronger on the route of this barrier?
    Ambassador Satterfield. I believe, Senator, we have been 
quite strong on the routing of the barrier. Our concerns have 
been made very clear by all U.S. Government interlocutors to 
the Government of Israel. They understand the President is 
concerned over the routing of the barrier and its impact both 
on permanent status negotiations and on Palestinian lives.
    We see the ICJ judgment, though, as only affording an 
opening for unhelpful, provocative resolutions in the General 
Assembly and potentially in the Council, which have very little 
to do with advancing the cause of peace. We are confident that 
appropriate steps will be taken by the Government of Israel to 
address the routing-related issues, but we are not prepared, 
Senator, to support in any way the findings of the ICJ in this 
regard.
    Senator Chafee. Even if that means lack of participation on 
the Road Map.
    Ambassador Satterfield. Senator, I do not believe in 
practice, indeed I am quite confident in practice, that 
whatever positions may ultimately be chosen in General Assembly 
debate or Council debate on this particular issue, the ICJ 
judgment, that we will continue to have the engagement and 
support of our critical partners in the region and in the 
international community through the Quartet and elsewhere for 
the Road Map.
    Senator Chafee. I have got a few seconds left. Do you 
know--and maybe I am putting you on the spot--where in specific 
do you take exception to the court's ruling?
    Ambassador Satterfield. Two different issues primarily. One 
is procedural. For the court to take up an issue----
    Senator Chafee. OK. Beyond that. I know that argument. 
Anything beyond that?
    Ambassador Satterfield. On the substance, we believe this 
is essentially a political issue to be resolved by agreement of 
the parties in negotiations, not for resolution by a judicial 
council or judicial body.
    Senator Chafee. Thank you.
    The Chairman. Thank you very much, Senator Chafee.
    Senator Boxer.
    Senator Boxer. Thank you so much, Mr. Chairman and 
colleagues, for holding this hearing.
    Ambassador Satterfield, I want to talk to you about suicide 
bombing. In March 2003, the Bush administration released the 
performance-based Road Map to a permanent two-state solution to 
the Israeli-Palestinian conflict, and that is the subject of 
this hearing. But I think very key to this is for the 
Palestinians to declare an unequivocal end to violence and 
terror and undertake visible efforts on the ground to arrest, 
disrupt, and restrain individuals and groups conducting and 
planning violent attacks on Israel. The Palestinians were 
further required to rebuild their security apparatus and begin 
sustained, targeted, and effective operations to confront all 
those engaged in terror.
    Unfortunately, Palestinian leaders have not changed the 
atmosphere--this is my view--in which suicide bombers continue 
to operate, and one gets the feeling that suicide bombers 
continue to be viewed as heroes in the Palestinian world. I 
believe as long as suicide bombers are viewed as martyrs and 
their photos are worshipped by the community, any Road Map, 
regardless of all its intentions--and Lord knows we all support 
this--is not going to work because that was the whole point. 
There had to be an end to the violence.
    I think sometimes when we talk about all these issues 
dealing with negotiations and so on and the shape of the table, 
we forget to put a face on what this has meant. Last September, 
Dr. David Applebaum and his daughter Nava were killed when a 
suicide bomber blew himself up in a Jerusalem cafe. I will 
never forget that story. For whatever reason, it just touched 
every bone in my body as a parent. Nava was to be married the 
next day. Her father simply wanted to share a meal with his 
daughter before giving her away. Instead of a wedding with 
hundreds of guests, there was a funeral with thousands of 
mourners. Over the past 4 years, 1,000 Israelis have been 
killed in similar attacks.
    Senators Allen and Brownback joined me a few years ago in a 
bipartisan amendment that said there was no justification for 
suicide bombings and the world should condemn them. Suicide 
terrorism cannot be used as a negotiation tool. And that is why 
we must insist on Palestinian leaders to reform their security 
forces and dismantle the terrorist groups that support suicide 
terrorism.
    So my question, Ambassador Satterfield, is, can you comment 
on Arafat's refusal to take on this issue of suicide bombing 
head on? And do you see anyone in the Palestinian community who 
will step up to the plate on this issue? After all, think of 
what they are losing on the Palestinian side, young, vibrant 
people, who are blowing themselves up, and that loss is 
palpable. So I need to hear from you where you see this whole 
issue of suicide bombing right now.
    Ambassador Satterfield. Senator, I certainly agree both in 
your outlining of the requirements for progress on the Road 
Map, for progress toward a two-state solution, but also the 
very unfortunate judgment which we fully share of the lack of 
progress that has been made on the critical issues not only of 
an end to violence and terror, but also an end to the 
atmosphere, the culture of incitement of grievance which feeds 
so much of what takes place on the ground. Far too many Israeli 
and Palestinian lives have been, continue to be, and will be 
lost in this process unless there is a coming to grips with 
this fundamental issue.
    With respect to the leadership of the Palestinians, clearly 
there is a continuing need for a structure of Palestinian 
leadership, both political and security, which is free of the 
taint of violence and terror, which is committed to taking the 
courageous, sustained steps necessary to speak out against the 
phenomenon of violence, whether it is suicide bombings or any 
other form of violence and terror. That leadership has not been 
able to express itself. That leadership has not been able to 
take effective steps on the ground. This is what we are 
advocating, a reformed Palestinian leadership, a reformed 
structure of Palestinian security services in Gaza and the West 
Bank that are capable and willing to take steps.
    Now, Senator, we have not advocated--and we say this very 
often--the Palestinian Authority to take measures which are 
beyond its physical scope and grasp. It is not what is being 
asked for today. It is not what was being asked for when Abu 
Mazen was Prime Minister or when Abu Allah took office. We are 
asking for reasonable, doable, achievable steps to be taken 
that send the message to the Palestinian people that this 
leadership is serious, that it will not tolerate violence and 
terror. It will not tolerate the further suffering of 
Palestinians through these phenomena. Now, that leadership has 
to emerge. If it does not, it will not be possible to advance 
this process. It will not be possible to see the successful 
conclusion of Gaza disengagement in the way that we all wish to 
see it, as a step back toward the two-state goal and a step 
forward for the Palestinians. It has to be done.
    Senator Boxer. Well, I just want to make a point here and 
the reason I stressed the suicide bombing aspect is if we are 
ever going to get a change, it seems to me this is an example 
where we can build some kind of a worldwide ethic against 
suicide bombing. I guess what I would urge the administration 
and future administrations of both parties is--I remember when 
the first woman suicide bomber blew herself up, and at that 
time I was in charge of a committee here and Senator Chafee and 
I had a hearing about that phenomenon. It just seems to me 
there is so much to be done, but this area of young people 
blowing themselves up, men, women, youngsters and killing dads 
and daughters who were having a cup of coffee to discuss 
marriage, that there is something there where we could, in 
fact, reach the mothers on both sides of the dispute.
    I am just trying to figure out a way to break through from 
all the diplomatic talk. By the way, you do it very well and 
you are very good at it. But when I read it back, it is 
diplomatic talk. You talked about coming to grips with the 
fundamentals and so on. I just think we need to somehow break 
through and put a more human face on what is happening.
    While I have one-half a minute, I ask you one more 
question, and that is about the Egyptians. According to 
reports, Egypt proposed sending 150 to 200 police officers to 
train a Palestinian force of 30,000 to provide security in the 
Gaza, but the offer is contingent upon Arafat handing over 
control of security forces to Mr. Qurei. Now, I know that you 
met on July 8 with Egyptian Presidential advisor Al-Baz to 
discuss the situation in Gaza. Where does this Egyptian offer 
stand following this weekend's events in the Gaza?
    Ambassador Satterfield. The Egyptian offer continues to be 
there and the Egyptians and the Israelis, the Egyptians and the 
Palestinians continue their direct parallel discussions on 
these issues. Egypt's commitment to do what is necessary both 
on its side of the border, as well as in Gaza, in the context 
of withdrawal, remains very much a critical element for us, for 
the international community, and for Israel.
    Senator Boxer. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Boxer.
    Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you. Ambassador 
Satterfield welcome.
    How significant do you believe the events of the past few 
days in Gaza, in particular, have been in regard to 
demonstrations against Arafat? It seems that there is some 
connection now--and this is really the question--between the 
people wanting a government that is honest, direct, can 
negotiate, and further to that point, it seems that there is an 
element of the Palestinian people that is starting to 
understand that unless they get that, their future is and will 
continue to be in doubt. Am I reading too much into what we 
have seen in the last few days? If you would, sort that out for 
us. Thank you.
    Ambassador Satterfield. Thank you, Senator.
    We agree with that latter part of your statement that there 
is a significant number of Palestinians who are sickened by the 
ongoing destruction, deterioration, and violence, who are 
sickened by the lack of leadership capable and willing to 
address their needs and to help them advance their aspirations, 
supported by the United States and the international community, 
toward a life very different from that that they lead today.
    I wish I could tell you, Senator, that the events of the 
past 3 days represent a genuine movement toward reform, toward 
structural changes, toward leadership transformation. But while 
those events are still, in some fashion, going on, I think our 
judgment is this represents more of an internal clash between 
personalities than it does a fundamental shift on the critical, 
structural, and leadership issues, which we, the Quartet, and 
Egypt have all insisted upon.
    We would hope that the opportunity continues to present 
itself, and the opportunity will be taken to make those 
changes. But I think it would be overreading the situation, as 
we understand it today, Senator, to see in Gaza's events that 
particular positive phenomenon unfolding.
    Senator Hagel. Thank you.
    You mentioned in your remarks and in your response to some 
questions here this morning that the Quartet is dealing with a 
post-Israeli pull-out of Gaza in the way of economic reform, 
economic restructuring, all the social dynamics that are going 
to have to be thought through and put in place.
    Specifically, do we have plans now that we are working 
through for economic reform, specific areas of not just the 
economic potential and framework and infrastructure, but 
connect that to the humanitarian? Thank you.
    Ambassador Satterfield. Yes, Senator. We have been very 
successful over the course of the past several years in helping 
to see put in place a very accountable and transparent 
budgetary process in the Palestinian Authority. That has been 
of enormous encouragement to the broader international donor 
community. We are, indeed, working on a concerted plan with the 
World Bank and with the international donor community on what 
will be necessary, post-Gaza withdrawal, to address both 
urgent, emergent humanitarian needs and longer-term 
infrastructure development requirements.
    The World Bank has produced an excellent study of the 
priorities for the donor community and for the Palestinians 
with Gaza withdrawal. On the basis of that report, we, Israel, 
the Palestinians, and the core leadership of the donor 
community will be moving ahead in the days and weeks ahead. We 
have had several meetings on this subject. The next major 
gathering will occur probably at the end of September with a 
meeting of the Ad Hoc Liaison Committee. We would hope that 
events would support, by the end of this year or beginning of 
next, a major donor conference, a pledging conference to focus 
on those needs which the bank has so correctly identified.
    Senator Hagel. Thank you.
    In your opinion, what are the prospects of an Israeli-
Syrian track being developed to deal with a peace process? In 
that regard, has the Syrian Accountability Act helped, 
hindered, neutral? What effect has it had or not had on the 
Israeli-Syrian peace prospects and Syria's role in this area?
    Ambassador Satterfield. Senator, we see little indication 
that an activated Syrian-Israeli negotiating track is likely in 
the near or predictable future. Syria's behavior on critical 
areas of concern to the United States, support for, 
encouragement of facilitation of the work of terrorists on its 
own soil, Palestinian, Iranian, Hizballah, has not diminished. 
These concerns led the administration, along with concerns over 
Syria's conduct with respect to Lebanon and conduct with 
respect to securing its border with Iraq, to imposition of 
sanctions under the accountability act earlier this year.
    I believe the act is having impact in terms of its affect 
on the Syrian economy and the Syrian financial sector, but it 
has not yet, Senator, produced palpable changes in any of the 
critical areas of concern, Iraq, Lebanon, or the questions of 
terror.
    Very frankly, if Syria does not move forward in ways that 
send a signal to the Israeli people and to the Israeli 
Government that they are prepared, as other parties have been 
prepared, to enter into peace negotiations without using the 
card, as they refer to it, of terror, as a lever to be wielded, 
I do not see a realistic chance of these negotiations beginning 
any time soon. We would hope that for the sake of the Syrian 
people, for the sake of their hope in a comprehensive peace, 
which President Bashar al-Assad has recently espoused, the 
Syrians recognize that the time has passed for the use of 
terror and violence as a corridor or pressure point in 
negotiations.
    Senator Hagel. Would the Gaza disengagement plan be helped 
by a new Likud labor coalition government in the Israeli 
Government?
    Ambassador Satterfield. Senator, I hope you will respect my 
right to decline an answer to that question, which is really a 
matter of internal political concern to the Government of 
Israel.
    Senator Hagel. There seems to be--and you have alluded to 
this in some of the discussion here this morning--a significant 
reduction in terrorist attacks in Israel over the last few 
months. Is that attributable mainly to the barrier in your 
opinion?
    Ambassador Satterfield. Senator, when we address the issue 
of a decline or relative decline in the number of security 
attacks, there are really two issues here. Have there been 
attacks successfully conducted? And there, yes, the number has 
declined.
    Has there been a decline in the number of planned 
operations? There the issue is much murkier. The problem with 
the cease-fires of the past with the periods of quiet, so-
called, in the past has been in fact there has not been a 
diminution in the number of planned operations. There has just 
been a more successful effort to confront them and stop them 
before they succeed.
    I am afraid that those operations continue to be planned. 
There continue to be efforts to attack Israel. Certainly there 
have been a number of factors involved in the diminution of 
successful attacks. The leadership of Hamas, of Islamic Jihad 
has been very severely affected by Israeli strikes.
    But what is critical and how we will define a true cease-
fire, a true end of violence and terror is when we see planning 
for attacks, not just successful attacks, ceased.
    Senator Hagel. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Hagel.
    Senator Dodd.
    Senator Dodd. Thank you very much, Mr. Chairman, and let me 
express my apologies as well to you and the committee for 
arriving after the testimony was provided by our first witness.
    But let me thank you again, Mr. Chairman. I think this is a 
very important hearing to have today on the status of the Road 
Map and it is important that we take stock of where we are in 
all of this.
    It has been said by others but I think deserves being 
repeated. Just to go back briefly in the recent past history, 
it was only a few short months ago, really when you think about 
it, that the entire world I think believed that peace between 
the Israelis and the Palestinians was imminent. We had the 
cooperation on security and economic spheres. It was helping to 
stabilize the life for the peoples of both Israel and 
Palestine. Cooperation was in no small part, in my view, due to 
the laser-like attention the Clinton administration paid to 
this issue, particularly the efforts of Dennis Ross.
    Then we saw things begin to really fall apart. The last-
ditch peace talks, of course, collapsed. You had the second 
intifada erupted. Yasir Arafat provided tacit, if not very 
direct, support for terrorist attacks against Israel. As 
Senator Boxer has pointed out, 1,000 innocent people have lost 
their lives as a result of suicide bombers. Corruption in the 
Palestinian Authority paralyzed its institutions, and that is 
an ongoing saga that does not seem to have any end in sight. 
Suicide bombings became almost a daily occurrence, and Israel's 
justified needs for self-defense required an approach that 
increased difficulties in the day-to-day life of Palestinians 
in my view. Tragically these two peoples who had devoted so 
much energy to the peace process--nothing seemed further away 
from the goal of peace, as we now close out end of this year 
2004.
    In 2003, of course, the Road Map was picked up on and sets 
forth some principles, the Quartet and all of the like.
    I was struck by a statement made by a witness we are going 
to hear from shortly, Mr. Chairman, by Dennis Ross in an 
interview he gave a few weeks ago, and I will ask him about it 
when he appears. But he said in that interview--what should 
they do was the question, and he said you need an enormous 
amount of effort to resolve these issues. The U.S. cannot 
expect to swing by the region every couple of months, make a 
couple of phone calls, and all be well. An ongoing, intensive 
effort is needed. Third, we need to engage in a peace process 
again. Right now we have a dialog of violence not words. To end 
this conflict, you need to get back to the latter.
    Senator Biden has asked this question. You gave a rather 
facile answer, Mr. Secretary. But the fact of the matter is, 
for many of us, we seem to have been just occasionally showing 
up on this issue, and not that I expect the United States 
necessarily to assume the responsibility for all that has 
occurred, but the failure for us to be as engaged as directly 
as we have been in the past seems to me to have contributed at 
least in small part, if not larger part, to the situation that 
presently exists.
    Tell me why you think I am wrong on that conclusion and why 
others hold that same view?
    Ambassador Satterfield. Senator, this administration has 
articulated, for the first time in U.S. history, a goal, a goal 
of two states, Israel and Palestine, beyond simply articulating 
that vision and the further definition of how you get there, 
how you get to the end of the occupation that began in 1967 
through direct negotiations, and has put out a Road Map, a Road 
Map which has full international and regional support and that 
has been endorsed by both sides, a Road Map that takes into 
account the sharp deterioration in trust and confidence, indeed 
the absence of trust and confidence between the parties, which 
existed when this administration took office. It has posed 
realistic, pragmatic, and practical steps for both sides to 
take, some in parallel, some sequential that bring the parties 
back to a point, with broad international support, to the 
ability to discuss the difficult permanent status issues 
between them.
    Senator Dodd. But we do not seem to have any broad 
international support here. We find ourselves more and more 
isolated. I do not disagree with your response to Senator 
Chafee, though, but we are getting more and more isolated on 
this issue and Israel seems to be getting more and more 
isolated on the issue as well. How do we explain this? I mean, 
4 years here. This thing is getting worse, not better. There 
does only seem to be an occasional interest in the subject 
matter, not the kind of intensive, laser-like fashion that you 
need to have if you are going to play a constructive role here.
    Ambassador Satterfield. Senator, I do not believe that the 
United States and its position on what is necessary to get to 
the two-state goal is in fact isolated. It is quite the 
opposite. We have broad international consensus behind us. The 
Quartet represents in its meetings, in its own engagement on 
the ground an expression of that international consensus behind 
our efforts.
    With respect to the situation on the ground, you are quite 
right, Senator. The situation is very bad. It has been a 
progressive deterioration. But I would challenge very 
respectfully the accusation that somehow a lack of attention on 
the part of the United States has been responsible for the 
continuing breakdown in this process.
    Senator Dodd. I said in part. I did not say all obviously. 
I accept the fact that there are others to share a lion's share 
of the responsibility, but we certainly cannot avoid the 
conclusion that this sort of casual participation in all of 
this has in my view at least--and others may share this view--
contributed to the situation.
    Ambassador Satterfield. Senator, this issue, the 
Palestinian-Israeli crisis has had the attention of the 
President, the National Security Advisor, the Secretary of 
State throughout all of this painful period. And there have 
been a constant series of exchanges here in Washington, in the 
region with all of the key leadership, as well as with the 
parties, private and public----
    Senator Dodd. Well, let me ask you very specifically. The 
President appointed a Special Envoy, John Wolf, to deal with 
this issue. Now, he retired several months ago. Has anybody 
been named to replace him, for instance?
    Ambassador Satterfield. Mr. Senator, John Wolf was head of 
our monitoring and compliance mission, but a monitoring and 
compliance mission needs something to monitor and compliance to 
judge. The parties themselves did not take the necessary steps 
on the Road Map in order to provide the progress necessary for 
that monitoring role to function.
    Senator Dodd. Well, you are making my case, it seems to me, 
here. So we get rid of the person. We get rid of the office. We 
give up?
    Ambassador Satterfield. No. We remain committed, Senator, 
to trying to advance this process. It is why we have seen in 
the Prime Minister's Gaza disengagement proposal an 
opportunity, one of the very few opportunities the last several 
years have presented, to break this cycle downward, to get back 
to the process through a unilateral decision by Israel, but a 
decision whose implementation will require broad support and 
broad engagement, back to the Road Map, back to the two-state 
goal. We do not, in any way, challenge the gravity of the 
situation.
    What I would challenge is whether the administration has 
been responsible for this failure to move forward to the goal 
of two states. In the end, the parties are responsible for 
their actions or inactions, Senator.
    Senator Dodd. Well, I appreciate your answer, but I must 
say it is not satisfactory to this member. And I appreciate 
your defense of the administration, but it seems to me we have 
seen anything but the kind of attention that I think this issue 
has merited over the last 3\1/2\ years.
    I am anxious to hear the other witnesses, Mr. Chairman.
    I am not laying this all at the doorstep of our witness 
here this morning, but you are the representation of the 
administration. And as far as this Senator is concerned, this 
has been a failure, a failure in my view. There is a vacuum 
here, and the vacuum of leadership on the part of the United 
States I think has contributed to what we are seeing today.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Dodd.
    [The prepared statement of Senator Dodd follows:]

           Prepared Statement of Senator Christopher J. Dodd

    The Senate Foreign Relations Committee has convened this morning to 
discuss a vitally important issue: the status of the Road Map to peace. 
I thank the chairman for holding this hearing, which is an opportunity 
to refocus attention on the Road Map--an issue that we ignore to the 
detriment of both Israelis and Palestinians. I would also like to 
welcome the distinguished witnesses here with us today, Ambassador 
Satterfield, Ambassador Ross, Dr. Aly, and Mr. Miller. I trust that 
they will provide us with valuable insights.
    Only a few short years ago, the entire world believed that peace 
between Israel and its Palestinian neighbors was imminent. Israeli-
Palestinian cooperation in the security and economic spheres was 
helping stabilize life for both peoples. This cooperation was in no 
small part the result of the Clinton administration's laser-like focus 
on this conflict, including and especially the efforts of Ambassador 
Ross.
    But then everything seemed to fall apart. Last-ditch peace talks 
were unsuccessful. The second intifada erupted. Yasir Arafat provided 
tacit, and many would argue, direct support to terrorist attacks 
against Israel. Corruption in the Palestinian Authority paralyzed its 
institutions. Suicide bombings became an almost daily occurrence. And 
Israel's justified needs for self-defense required an approach that 
increased the difficulties of day-to-day life for Palestinians. 
Tragically, for the two peoples that had devoted so much energy to the 
peace process, nothing seemed farther away than their goal of peace.
    In April 2003 the Bush administration took an important step toward 
a long-overdue re-engagement in the region, when it worked along with 
the EU, UN, and Russia to craft the Road Map. The Road Map sets forth 
principles to ensure security for Israel's citizens. It also holds out 
the promise of a sovereign Palestinian state, if the Palestinian 
Authority takes certain concrete actions.
    Now, more than a year later, little progress has been made toward 
implementation of the Road Map. Commendably, Israeli Prime Minister 
Ariel Sharon is pushing forward with his plan for Israeli disengagement 
from the Gaza Strip, a move which many agree is a step toward full 
implementation of the Road Map.
    However, instability and corruption continue to paralyze the 
Palestinian Authority [PA]. Domestic Palestinian dissatisfaction with 
cronyism in the PA played a large role last year in forcing Yasir 
Arafat to create the post of Prime Minister. But his refusal to give up 
the reins of power was arguably the major factor contributing to the 
resignation of the first Palestinian Prime Minister, Mahmoud Abbas.
    There is now a new Palestinian Prime Minister, Ahmed Qureia. But 
the situation has remained largely the same, and Prime Minister Qureia 
submitted his resignation to Arafat just last weekend. Although he has 
since rescinded his resignation, tensions remain high between the two.
    Indeed, frustration with corruption at the top of the Palestinian 
hierarchy seems to have reached a high-water mark--frustration on the 
part of the Egyptians, the UN, and the Palestinians.
    Despite significant efforts on the part of the Egyptian Government 
to help prepare the Palestinians for a Gaza withdrawal, Yasir Arafat 
has continued with his usual delay tactics. Only recently and following 
threats by the Egyptians did he consolidate about 12 disparate security 
services into three organizations. And while this consolidation was 
called for under the Road Map, it appears that Arafat retains authority 
over these services.
    This same frustration prompted UN envoy Terje Roed-Larsen, in a 
move that is unusual for UN officials, to harshly criticize Arafat for 
the lack of support he has given to Egyptian efforts in Gaza. It is 
quite telling that Mr. Larsen was promptly declared persona non-grata 
in the Palestinian territories.
    Palestinian frustration with corruption in the PA has also been 
increasing and seems to have culminated over the past week, when Yasir 
Arafat appointed his cousin, Moussa, to be the head of one of the 
newly-formed security services. In response to this appointment, three 
prominent Palestinian security officials resigned and thousands rioted 
in Gaza. The appointment and resulting chaos in Gaza also led the 
Palestinian Prime Minister to tender his resignation. While Moussa 
Arafat's appointment has now been annulled, this frustration threatens 
to boil over.
    Many Israelis and Palestinians would agree that we are at a 
critical juncture here. That is why it is so important for the U.S. and 
the international community to remain engaged. Significant progress in 
the Middle East has historically come only when the U.S. is 
consistently engaged, and at the highest levels.
    Therefore, the U.S. should now assist the Israeli Government in 
implementing its disengagement plan, which is essentially a part of the 
Road Map, and which the majority of the Israeli public supports. And we 
should continue to provide Israel with all appropriate resources to 
protect its people. Commensurate with reforms in the Palestinian 
Authority and actions against terror, we should also help the 
Palestinian people build the institutions that they will need to 
realize the end-goal of the Road Map, namely a sovereign Palestinian 
state.
    The U.S. should also provide Egypt with the proper support for its 
efforts, while at the same time insisting that it take meaningful steps 
to shut down tunnels used for weapons smuggling between Sinai and Gaza. 
That will contribute to Israeli and Egyptian security, and it will cut 
off a vital artery to terrorist groups, and thus instability in Gaza.
    Finally, the Bush administration should take heed of some trenchant 
comments, written by Ambassador Ross in a recent Op-Ed. In that Op-Ed, 
he wrote ``The U.S. cannot expect to swing by the region every couple 
of months, make a couple of phone calls, and all will be well. An 
ongoing, intensive effort is needed.'' For the sake of millions of 
Israelis and Palestinians, who dream of peace and who deserve to 
realize that dream, I urge the administration to make that effort.
    Again, I thank the chairman for convening this hearing. I look 
forward to asking some questions of our witnesses.

    The Chairman. Let me explain to Senator Nelson that I 
recognized earlier Senator Biden for his question period at 
this stage. I will recognize him now and then you.
    Senator Biden. No. That is all right.
    The Chairman. You will yield to the Senator? All right. 
Senator Nelson.
    Senator Biden. No. I have already had a bit of a round. 
Please go ahead.
    Senator Nelson. Well, Mr. Chairman, before I ask my 
question, I want to tell a story that is relevant to this 
situation and my question. That was, prior to going to Israel 
and visiting with the Israeli Government and the Palestinian 
Authority, I had visited with the President of Egypt and his 
head of security, General Suleiman. General Suleiman told me to 
confirm with the Palestinian Prime Minister that he, General 
Suleiman, had just visited with Arafat and that Arafat had 
assured him--now, this is January--that within 2 weeks, that he 
was going to appoint a new security chief. So I carried that 
message from General Suleiman to Prime Minister Qurei, and he 
kind of smiled and said, maybe 2 weeks, maybe 52 weeks. Of 
course, what he was saying is what we see today, that either 
Mr. Arafat is unwilling or incapable of bolstering up the 
security for the Palestinians.
    So in light of that, my question is in the chaos that is 
enveloping, do we see the Egyptians entering in and trying to 
provide some stability, and if not, what about NATO?
    Ambassador Satterfield. Senator, we do indeed see the 
Egyptians engaging in quite extraordinary efforts to try to 
move the Palestinian leadership, working at the level of the 
most senior officials, including Arafat, and also working at 
the level of the security commanders, to confront and take 
those steps necessary to move forward on security.
    Prime Minister Abu Allah's comment to you in January, 2 
weeks, 52 weeks, is indeed indicative of the problem he, we, 
and the Palestinian people face. There has been a failure of 
leadership and I would attribute it, frankly, Senator, to a 
failure of will, not capacity to move. Those in responsible 
positions in the Palestinian leadership, including Chairman 
Arafat, have failed to take steps they are quite capable of 
taking for the benefit of the Palestinian people, and that 
failure has harmed the Palestinian people in the past and 
continues to do so today.
    Egypt is playing an exceptional role here and we want to 
see that role continue to move the Palestinian people forward.
    Senator Nelson. Well, instead of the international 
terrorist groups completely taking over, do you see some 
optimism with regard to the Egyptians stepping in?
    Ambassador Satterfield. I think the Egyptians are perfectly 
prepared and have discussed quite openly with the Palestinians 
and Israelis a supportive role on security, but if your 
question, Senator, refers to Egypt assuming political control 
in Gaza, that is not an issue at all.
    Senator Nelson. I am talking about security.
    Ambassador Satterfield. On security, Egypt is not in a 
position to take over except in terms of security on its own 
borders in the Sinai. What it is able to do is to provide very 
significant encouragement, support, and direction for 
Palestinian security forces to assume their responsibilities, 
and that is the role that we very much hope can be played.
    Senator Nelson. Well, when Israel starts its withdrawal 
from Gaza--look into your crystal ball--is there going to be 
any subsiding of the violence?
    Ambassador Satterfield. For withdrawal to be a success, 
there will have to be preexistent an end to violence and terror 
on the ground. There will have to be a significant change in 
the structuring of the Palestinian security forces. That is in 
order to make this all work. Do I think it is possible? 
Absolutely, Senator. I think it is indeed possible. But it is 
going to require leadership decisions taken by the Palestinian 
Authority that have yet to be adopted.
    Senator Nelson. How about the role of NATO?
    Ambassador Satterfield. We do not see a role for NATO or 
external forces in Gaza at this time.
    Senator Nelson. I recall that the Israeli High Court on the 
question of the fence said the fence is legitimate for 
protecting against terrorists, but they said you have got to 
take into consideration some of the demographics and how you 
are splitting Palestinian neighborhoods. Give me the 
administration's response to that.
    Ambassador Satterfield. We very much respect the High Court 
judgment which certainly upheld the security justification for 
a barrier, but stated--and I paraphrase here--that there needs 
to be a balance struck between those security justifications 
and the political and humanitarian consequences of the fence on 
the ground. The administration separately has made very clear 
that we also respect the security needs of Israel in the 
deepest sense possible, but we also believe and have 
significant concerns over the impact of the course of the fence 
on humanitarian lives, Palestinians, as well as on the 
political future of the negotiating process, and we hope very 
much, in response to the High Court judgment, there are changes 
made in the routing of that fence which do respond to our 
concerns.
    Senator Nelson. Is the administration prepared to provide 
assistance to Israel to compensate the settlers and cover the 
cost of disengagement?
    Ambassador Satterfield. That issue has not been raised with 
the government.
    The Chairman. Thank you, Senator Nelson.
    Senator Biden.
    Senator Biden. Thank you very much.
    Much of what I wanted to discuss has been covered. Let me 
just focus on two specific points.
    One, Mr. Secretary, you indicated what you thought was 
necessary for withdrawal to be a success. Is full Egyptian 
engagement necessary for withdrawal to be a success? Or put 
another way, if Egypt opts out, do you see any circumstances 
under which withdrawal can be a success?
    Ambassador Satterfield. Senator, I think the Egyptian role 
is critical to success of this undertaking, critical to its 
preparations now, critical to the successful conduct of 
withdrawal, and certainly critical to what happens after, and 
that is for two different reasons.
    Egypt is the most significant Arab interlocutor with the 
Palestinians today, with the Palestinian leadership, with the 
security services. That is very important and it needs to keep 
that role front and center.
    Egypt also has an immediate role on the Rafah-Sinai border. 
We all know the phenomenon of smuggling of arms through tunnels 
into Gaza is a destabilizing issue today. It will be a 
destabilizing issue tomorrow. Egypt has a key role to play 
there, indeed a vital role to play there.
    Yes, I would identify the Egyptian role as important, 
vital, critical.
    Senator Biden. Now, that being the case, are we prepared to 
be an interlocutor between Egypt and Israel? I guess the 
antecedent question is, in you view are, what I understand to 
be the demands of the Egyptians in order to play the envisioned 
role, those demands being consolidation of the security 
services by the Palestinians, complete Israeli withdrawal--that 
does not just mean, as I understand the Egyptian position, 
civilian withdrawal, the roughly 7,000 Israeli citizens living 
there, but the military as well. And there is the question of 
that very border where the smuggling takes place. The IDF is 
having to make a judgment of whether or not they are prepared 
to cease and desist from controlling that area.
    I understand a third request or demand of the Egyptian 
Government is that there be agreements. I assume it means 
Egyptian agreement bilateral with the Palestinians and with the 
Israelis not to escalate the response to provocations, i.e., 
Katyusha rockets coming out of the Gaza, Israelis responding 
where there are Egyptian forces or Egyptian personnel. And an 
agreement that there is direct linkage to reengaging the Road 
Map, to get everybody out of park and on the road driving 
again.
    Now, first of all, am I correct that these are the essence 
of the demands that the Egyptian Government has in order to be 
engaged to the degree that you believe, I believe, I believe 
the Israelis believe is useful, if not necessary, for a 
successful disengagement by the Israelis? Are they the demands 
as you know them?
    Ambassador Satterfield. Senator, you are quite correct in 
characterizing the Egyptian assistance upon restructuring and 
consolidation of Palestinian security forces under clean, 
competent leadership responsive to an empowered civilian 
leadership. You are quite correct in stating Egyptian concerns 
over the security environment in Gaza for their forces should 
they place trainers and advisors there, as is under discussion. 
And you are also correct in describing broad Egyptian interest, 
which is certainly supported by the United States in seeing 
Gaza withdrawal take place within the context of broad steps 
that move us back to the Road Map toward the two-state vision.
    With respect to the character of the dialog between----
    Senator Biden. Excuse me. Is the fourth element not total 
withdrawal of Israeli forces?
    Ambassador Satterfield. The Egyptians have publicly stated 
that they wished to see full withdrawal of Israeli military 
forces.
    With respect to the character of the dialog being conducted 
directly between Egypt and Israel at a political, as well as a 
security expert level, we are both impressed and quite pleased 
by the vigor, by the robustness of that dialog. The two sides 
are, as we speak, in discussion on the very issues which you 
are raising here today, and we are quite encouraged by the 
revival in direct contacts on this critical issue between Egypt 
and Israel. It is a process that has benefits to both sides. We 
certainly want to see it continue.
    Senator Biden. Are there any of the Egyptian requests that 
the United States views as not reasonable?
    Ambassador Satterfield. These are positions that the 
Government of Egypt is representing directly to the Government 
of Israel in some cases and directly to the Palestinian 
leadership in others. We are quite confident this is a 
productive and a constructive dialog.
    Senator Biden. But are we engaged in that at all? This is I 
think the frustration that Senator Dodd--it is dangerous to 
characterize another colleague's concerns, but I think Senator 
Dodd and I share the same concern here. You are technically in 
a sense, in a legal sense being absolutely accurate and 
precise. But in the past--we have been here for a long time--
Republican as well as Democratic administrations have used 
their good offices behind the scenes to engage the parties. Let 
me give you an example.
    I am not asking you whether you are doing this. It would 
seem to me it would be very useful for us to be intervening 
with our Quartet members to entreat them to make clear their 
views to Mr. Arafat on the notion of consolidation of the 
security force. One of the continuing problems we have had that 
the average person listening to this hearing might not 
understand but you fully understand is that we have been at 
odds with the Quartet not on the broad Road Map, but on the 
degree to which we should each be engaged in promoting that 
Road Map, i.e., putting pressure on Arafat to do certain things 
rather than continuing to support Arafat publicly.
    So I want to make it clear that I think you are very adept. 
Were I in the administration, I would be very pleased with your 
testimony. You are very good. Very good and very bright and 
very patriotic. But you are very State Department-esque 
evasive.
    And we are used to that. That is part of your job. I got 
that. I understand that.
    But the bottom line here is that what we need to get a 
sense of, if not from you--and I am not being a wise guy when I 
say this. This may be above your pay grade. I am not being a 
wise guy. I mean that sincerely. I really, truly understand it. 
It may be beyond your ability to speak to.
    Senator Dodd. Tell us anyway, though, if you would.
    Senator Biden. Yes. But here is the point. I do not want 
the record left without this being addressed. The fact of the 
matter is there are multiple things this President, in my 
characterization, when he has been more engaged, would do in 
this circumstance and may be doing, but I am unaware of, and 
that other Presidents and other Secretaries of State and people 
in your position have been doing. If we think this is an 
important ingredient for the possibility of successful 
withdrawal, which is the only thing that is changing the 
dynamic in the region right now, whether you like Sharon's 
notion or not, I think everyone has to agree this is the only 
thing on the board that changes the dynamic. Everything else 
remains the status quo. And it is a chance he is taking 
politically and it is a chance he is taking substantively. 
Reasonable people can disagree on whether or not it is a wise 
move for Israel or for peace, whether it is Gaza only or Gaza 
first. All that history will decide. We will soon find out.
    But in the past, this President briefly, the last two 
Presidents, including the President's father, would be more 
significantly engaged in, for example, facilitating the 
Egyptian request, not merely saying, look, we are just good 
bystanders here. It is good, in my view, a very positive step, 
that the Egyptians and the Israelis are actively engaged one on 
one.
    But I hope you are not telling us that we are essentially a 
bystander here. If they work it out, wonderful. It is good that 
they are working on this. It is a fine thing they are engaged. 
We think this is very constructive. And maybe the second 
tranche of this agreement will work out so that we end up 
having dah-de-dah. The bottom line is--I am not asking for 
detail. Tell me, wink, nod, give me some reassurance that you 
guys are doing something other than what you said.
    Ambassador Satterfield. Well, Senator, what I said and what 
I will reiterate is we are actively engaged and have been 
throughout with the Governments of Israel, Egypt, and with the 
Palestinians to support the necessary steps to make this 
withdrawal a success, and that specifically includes not only 
our own support in public and behind the scenes for the 
Egyptian effort, it means mobilizing the Quartet which has 
expressed, most recently in early May when the principals met, 
its own strong support on behalf of the international community 
for Egypt's efforts. We are engaged.
    Senator Biden. Have they communicated that, do you know? 
Have the individual members of the Quartet picked up the phone 
and called Arafat and said, Jack, get off the dime or you lose 
our support? Is that happening?
    Ambassador Satterfield. Senator, I will point out remarks 
made in the Security Council by the U.N. Special Coordinator 
for the Middle East, Mr. Larsen, which attracted the attention 
of the Palestinian Authority in which he stated in terms as 
blunt, as clear as have ever been used in that forum, the 
concerns that the United Nations feels, through his 
representation, and which the Quartet collectively feels about 
the need for the Palestinians and the chairman to act. He could 
not have been blunter in his remarks. That is a product of the 
diplomacy on which we have been embarked for these last years.
    Senator Biden. You are good. Thanks.
    The Chairman. Thank you very much, Senator Biden.
    Senator Brownback, do you have questions for the witness?
    Senator Brownback. Yes. If I could just briefly, Mr. 
Chairman.
    The Chairman. Please proceed.
    Senator Brownback. My apologies for being late. I just got 
off a plane from Tel Aviv and was there and talking with the 
Israeli leadership and looking at the security fence. So I 
apologize for coming late, and I apologize I have not heard all 
the testimony and questions earlier.
    It does strike me from being there that until there is 
somebody to negotiate with at the PA, there is not a whole lot 
that is going to be able to happen, and that the Bush 
administration, at least certainly from the Israeli leadership, 
is doing everything that they can. But until the Palestinians 
sort out their own leadership discussions and debate, there is 
just not a whole lot that really can happen. What you are doing 
is appreciated, but we cannot determine the Palestinian 
leadership. Palestinians have to determine their own leadership 
and they should determine their own leadership. They are 
involved in, it looks like to me, a very messy dispute right 
now to determine who is going to lead and how, and that could 
take some time to sort out.
    I do not know what else you do. The Bush administration 
cannot go in there and say, OK, this is the person that is 
going to lead. The Quartet cannot go in there and say, OK, this 
is the person that is going to lead the Palestinians. That has 
to be resolved by themselves and it could be a difficult period 
of time. I think we can encourage them to select leadership and 
should get the Quartet to encourage them to select leadership. 
But until they pick that, I do not see who is there to 
negotiate with. You just cannot negotiate with yourself.
    Now, on the security fence, I toured several areas of the 
security fence, and I do not think there is any question but 
that this has been, as a security fence, successful. It is 
something I think, Mr. Chairman, we probably would do here if 
we were confronted with a very similar situation of such close 
proximities to a population and so many terrorist bombings 
taking place, that we would probably do something really quite 
similar. As a democracy, the first call is to protect its own 
citizens. It is hard to see much any different than what has 
taken place.
    I would urge the administration and the Israeli leadership, 
as I did there, to work with as many people as possible so that 
the route is as least intrusive on people's normal lives, if 
they can do that. And they seem to be very open to being a part 
and to do that, and they are reconstructing it at a number of 
points to try to make that take place.
    I appreciate what you guys are doing. Mr. Chairman, not to 
prolong this, but I just would encourage you to stay as engaged 
as you can. But I think there have to be a couple of factors 
they are going to have to put into place before a whole lot 
more can happen in the region. The first of that and the 
foremost is going to be the Palestinian leadership.
    Thank you for being here. Mr. Chairman, thanks for holding 
the hearing.
    The Chairman. Well, thank you, Senator Brownback. We 
appreciate the fact that you got back safely. As you can see, 
Ambassador, members of our committee are engaged in the 
territory, as you have been. We are deeply interested, and we 
appreciate your efforts.
    Senator Chafee. Can we ask any more questions or do you 
want to go to the next panel?
    The Chairman. Do you have another one? Please go ahead. 
Senator Chafee.
    Senator Chafee. I just want to followup on some of the 
questions that have been asked subsequent to my question about 
the engagement and the commitment and your own testimony that 
the President believes in the two states living side by side. 
One of the fervent opponents of any land for peace and one that 
has written that the West Bank essentially should be Israeli 
territory is David Wormser, who the Vice President hired as its 
Middle East advisor. Have you met with him?
    Ambassador Satterfield. Senator, I would respectfully 
decline an answer. I know Mr. Wormser but this is a domestic 
issue.
    Senator Chafee. Has he expressed his opinions to the 
Department of State?
    Ambassador Satterfield. I really could not comment on that 
issue.
    Senator Chafee. I think this leads to a lot of our 
uneasiness about the President's commitment to what he is 
saying, leading to some of the other questions that I have 
heard here this morning.
    The Chairman. Thank you, Senator Chafee.
    Senator Dodd.
    Senator Dodd. Dennis Ross, a witness coming up, raises 
something in his testimony and normally I would obviously let 
him make his own testimony, but assuming he makes this comment, 
I wanted to raise the question with you to see how you would 
respond to this. And I am quoting from his testimony. He said: 
``While sympathetic to the Israeli concerns, I favor Arafat 
being released from the Muqata. He certainly hasn't earned a 
release, but he is using his virtual prisoner status as a 
symbol of humiliation, not of himself but of the Palestinian 
people, and that resonates, building support for him and 
keeping reformers on the defensive. However, I would make 
Arafat's release to Gaza, not release for external travel, part 
of a package of understandings in which Arafat would not be 
able to go to Gaza until the security restructuring had taken 
place and there was actual performance for several months.''
    I just want to get your reaction to that.
    Ambassador Satterfield. Senator, a number of parties, 
Palestinian and external, have proposed various formulae to 
address the situation of Chairman Arafat in the Muqata, most of 
which seem to focus on his ability to travel outside, whether 
it is just to Gaza or to select cities in the West Bank. Where 
all of this falls down in a practical sense is that Arafat has 
before him literally today challenges which he can respond to, 
has the capacity to respond to from Ramallah in a positive 
fashion for the benefit of his people. And he has time and 
again chosen to take another set of decisions or to simply not 
act at all while his people continue to suffer. To the extent 
that any party is holding out the prospect of a different 
status for Arafat, Arafat has done absolutely nothing to 
justify any change as we see it in any parties' view of his 
situation.
    I would have to raise here one particular U.S. Government 
concern. Three American officials were killed in Gaza a year 
ago. There has been no satisfactory resolution of this case. We 
can only conclude that there has been a political decision 
taken by the Chairman to block further progress in this 
investigation. I raise this only as an example of how this 
individual has had challenge after challenge posed to his 
leadership and has either not acted or has acted negatively in 
response.
    Senator Dodd. So you would flatly reject this idea.
    Ambassador Satterfield. Pardon?
    Senator Dodd. You would flatly reject this idea then raised 
by Dennis Ross.
    Ambassador Satterfield. My comment would be Arafat has done 
nothing--nothing--to demonstrate a positive role on behalf of 
his people.
    Senator Dodd. Thank you, Mr. Chairman.
    The Chairman. Well, thank you, Senator Dodd. Thank you 
again, Ambassador Satterfield. We appreciate your testimony. We 
wish you every success in your forthcoming mission as our 
Ambassador to Jordan. We appreciate your coming today.
    I would like to call now upon our second panel of 
distinguished witnesses, and those will include: the Honorable 
Dennis Ross, director and Ziegler Distinguished Fellow of the 
Washington Institute for Near East Policy; Dr. Abdel Monem Said 
Aly, visiting fellow of the Saban Center for Middle East 
Policy, the Brookings Institution; and Mr. Aaron David Miller, 
president of Seeds of Peace in Washington, DC.
    Gentlemen, we appreciate your coming to the committee this 
morning. We look forward to your testimony. I will call upon 
you to testify in the order that I introduced you and that will 
mean, first of all, Ambassador Ross.
    Let me just say that your statements will be made a part of 
the record in full. I ask that you proceed in any way that you 
wish. I will not be rigorous in terms of time constraints. Our 
desire today is to receive the information and then hopefully 
you will respond to questions in a round of questioning after 
the three witnesses have concluded.
    Senator Dodd. Mr. Chairman, let me say some of Ambassador 
Ross' statement has already been made part of the record, and I 
apologize. It is normally not something I do, but I could not 
resist asking the question based on something he said.
    The Chairman. This should be reassuring, Ambassador Ross, 
that we read the testimony and study before we come to these 
hearings.
    Would you please proceed.

      STATEMENT OF HON. DENNIS ROSS, DIRECTOR AND ZIEGLER 
 DISTINGUISHED FELLOW, THE WASHINGTON INSTITUTE FOR NEAR EAST 
                             POLICY

    Ambassador Ross. Thank you, Mr. Chairman. First, I thought 
it was an excellent question. So I was not at all unhappy to 
hear it.
    What I am going to try to do this morning, rather than 
repeating what I have submitted, is offer a set of comments 
largely based on what I heard this morning because I think it 
will offer a perspective on a lot of the questions that were 
raised and give us a chance, I think, to try to understand 
really where we are and also what the American role is right 
now, which seemed to be such a critical concern.
    No. 1, let us put things in perspective. Since the year 
2001, there really has not been a peace process. A peace 
process means that in fact you do have a dialog of words 
between the parties, and we have had a dialog of violence. 
There have been a few moments where there was some greater hope 
and the sense of possibility.
    One was the Road Map, but the Road Map, bear in mind, was 
not negotiated with the parties. It was negotiated with the 
members of the Quartet, and it really never has been 
implemented on the ground. It remains on paper. When I am asked 
the question, is it dead, I say it has to be born first, and it 
really has not been.
    Second was with Abu Mazen when Abu Mazen became the Prime 
Minister. But here again, he was in for all of 3 months and 
never really was able to act on many of the things that he said 
for a variety of reasons that perhaps we can discuss later on.
    So the point is we have not had a peace process. We have a 
situation that has been largely frozen. The situation has been 
frozen mostly in terms of hope, but not in terms of a constant 
deterioration. What we have seen has been a constant 
deterioration with both sides paying a very heavy price over 
the last 3-plus years, Israelis as well as Palestinians.
    Now, there are two decisions the Israeli Government has 
made that are beginning to change that situation. One is 
changing the situation from a security standpoint for the 
Israelis and that, Senator Brownback, is what you were 
referring to, the security barrier or fence. It affects things 
because the fact of the matter is while David Satterfield was 
correct, the numbers of attempts are continuing, the difficulty 
of carrying out successful suicide attacks has changed, in no 
small part because many of the suicide attacks begin in the 
northern part of the West Bank and to travel down around where 
the fence is already built or where the barrier is already 
built is not so simple. You subject yourself to more people you 
have to work with. That gives the Israelis additional 
opportunities to find out what is going on and intercept those 
who would carry out the attacks.
    Now, the reason it remains difficult for the Palestinians 
is the barrier is one-quarter completed and the Israelis 
maintain a siege in the rest of the territories. So Israel is 
becoming more secure even while there are as many attempts as 
before, but life for the Palestinians remains very difficult.
    Now, the second decision the Israelis have made that is 
changing the situation and in this case creates the possibility 
of an opening is the decision to withdraw from Gaza. It is 
obviously not a simple decision. When I was in the area a 
couple of weeks ago and I spoke to the Prime Minister of 
Israel, one thing was unmistakably clear. He will do it. He 
will absolutely do it. He may not have the government to do it 
right now. He may not know what the politics are going to be to 
get it done, but he is going to get it done.
    And there is nobody on the Palestinian side who questions 
whether Israel is going to withdraw from Gaza. And because of 
that, now we are seeing the turmoil on the Palestinian side. We 
are seeing the turmoil because Palestinians understand the 
Israelis get out of Gaza, and when they get out of Gaza, the 
Palestinians have to govern themselves. They have to bring 
order out of chaos. They have to prove to the rest of the 
world, as well as themselves, that they are ready for 
statehood, and they cannot do it with the current situation 
where there is no rule of law, where there is corruption, where 
there is a dependency on the cronies of Arafat who have no 
credibility with the population certainly in Gaza.
    And you see a move of some of the younger members of Fatah, 
not only in terms of organizing elections in Gaza over Arafat's 
opposition, but also an insistence that things have to change. 
The Palestinians have to put their house in order. And the 
turmoil that you have seen over the last several days is a 
function of recognizing that they have to change and they 
cannot continue as they are.
    Now, when the Palestinian Prime Minister Abu Allah 
threatens to resign and today he rescinds it, it is also part 
of a strategy right now designed to say to Arafat, if you do 
not go along with the restructuring of the security forces, I 
cannot do my job. He went there today with a committee to meet 
with Arafat, and the reason he made his decision is because he 
got a number of promises from Arafat on going ahead.
    Now, the story you recounted, Senator Nelson, about is it 2 
weeks or 52 weeks probably fits these promises as well. Abu 
Allah has a pocket full of promises from Arafat. Will these be 
different? Well, they could be in one respect.
    Arafat has a nose for survival and what he has always cared 
about more than anything else is the Palestinian street. In 
Gaza right now, you are beginning to see the Palestinian street 
express itself. Because they do not have a normal structure for 
expressing themselves, what do they do? They kidnap one of his 
cronies, Ghazi Jabali, the head of the police, and they march 
him through a refugee camp. In the refugee camp, they have him 
admit--and they point out that he has been stealing their 
money. This is the way they express themselves. They challenge 
who he is appointing. When he appoints his cousin to be the new 
head of security, they are up in arms with that. There are 
attacks against headquarters. Now, it may not be the way we 
would like to see them expressing themselves, but they do not 
have a lot of other vehicles right now.
    So in answer to the question that was posed earlier, is 
this the beginning of something significant, my answer is yes. 
It is going to be transformed into something that creates a new 
reality? I do not know yet. I do not think anybody can say yet.
    And let us bear in mind that no one historically has 
confronted Arafat on the Palestinian side because he is an 
icon. He put the Palestinians and their cause on the 
international map, on the international stage. He gave them 
recognition when nobody else had. One of the most famous 
Palestinian poets referred to the Palestinians as being a 
people expelled from history. Arafat gave them a history, but 
Arafat gives them no present and he gives them no future. And 
most Palestinians know that, and while they do not want to 
divide themselves, now with the Israeli withdrawal coming, they 
know they have to do something.
    Now, if he reads the mood of the street, insisting he has 
to do something, he will accommodate it. Even while he 
accommodates it, given his historical pattern, he will maneuver 
and try to subvert what it is he has accommodated. But the more 
the Palestinian street is in evidence, the more he will make 
adjustments in light of that.
    So in that context, now the question comes, where is the 
diplomacy, what is going on right now? I think we have to be 
clear, the only one who is truly being active right now from a 
diplomatic standpoint is Egypt. We are not. Senator Biden is 
not here, but Senator Biden said, are we a bystander? Well, I 
would not say we are solely a bystander, but the question he 
was getting at is in the middle of the Israeli-Egyptian 
discussions are we there as well. And the answer is no. They 
inform us, after the fact, of what they are talking about.
    Let us put in perspective what the Egyptians are doing 
right now. The Egyptians, in effect, are playing what has been 
the traditional American role. Look at the three basic things 
the Egyptians are doing.
    The first, the Egyptians are trying to reassure the 
Israelis on security so that the Israelis can get out of Gaza 
completely. The Israeli military believes that for now it needs 
to stay in what is known as the Philadelphia Route, which is on 
the border of Gaza and Egypt, and the reason is because of 
smuggling. The idea of concern is that you are going to have a 
qualitatively different kind of weapon smuggled into Gaza after 
they are out. What does it mean? Katyushas into Gaza which have 
the range to hit Ashkelon. Surface-to-air missiles, even 
portable into Gaza that could bring down an Israeli aircraft. 
That changes the whole rules of the game. The IDF view is 
satisfy us on that before we can get out. At this point the IDF 
is not satisfied but the Egyptians are beginning to work on it. 
So here are the Egyptians assuming the responsibility for 
reassuring the Israelis on the issue of security.
    The second role they are playing is putting themselves with 
the Palestinians to try to carry out the structural 
reorganization of the Palestinian security organization so 
instead of having 12 organizations, all competing with each 
other, all designed to ensure loyalty only to Arafat and not to 
each other, you should have three and they should be 
professional. What the Egyptians are trying to do, the essence 
of their plan is to actually get the three appointed, organized 
with leaders, have those leaders come to Egypt where they will 
have discussions with the Egyptian security on what their role 
and responsibilities will be. And the Egyptian role of putting 
advisors in is not to go and train. It is to monitor, to be 
there in Gaza to monitor the responsibilities that they have 
worked out with the Palestinian security forces. Arafat at this 
point said yes to it, but he means no.
    But here again, so first the Egyptians are trying to assure 
the Israelis on security. Second, they are trying to carry out 
the reorganization with a structure of responsibility that they 
will monitor on the issue of security and the security 
organizations.
    Third, when the Israelis and the Palestinians are not, in 
fact, engaged in a discussion at any senior levels, they are 
trying to coordinate between the two of them because the 
Israeli withdrawal--and Prime Minister Sharon wants to withdraw 
and he does not want to have to negotiate it. He said, look, I 
have not had a partner up to now. If I have to negotiate it, 
the Palestinians force me to adjust what we are going to do in 
our own interests. I want to be able to do it on my own.
    But the reality is you have to coordinate it in some 
fashion. Who do you hand it off to? When you withdraw, is it 
going to be Hamas who benefits? Is it going to be Palestinian 
elements or the Palestinian Authority that is prepared to 
coexist with Israel? If you are going to get out of the 
settlements, which they are going to, who does it get handed 
off to?
    Are you going to agree that the buildings there will be 
dismantled, but the infrastructure maintained? When I was just 
in the area, what I heard from all the Palestinians I talked 
to--and I talked to a very wide spectrum in both the West Bank 
and in Gaza--they actually are now saying let the Israelis take 
down the settlement houses because we are concerned if the 
houses are there, it will go to the cronies of Arafat or the 
thugs who have the most arms. We would rather have the houses 
taken down, the infrastructure maintained, build apartment 
buildings there so many more Palestinians can benefit. Well, 
here again, this is not going to happen in the abstract. It is 
only going to happen if in fact there is some kind of 
coordination, and it is the Egyptians right now who are going 
between the Israelis and the Palestinians. Now, this is the 
historic American role.
    Now, the Egyptians have a set of concerns. Some of those 
are the ones that Senator Biden raised, but there are a few 
other ones as well. For them to be able to carry out what they 
want to do, they want to know certain things from us, and it is 
not just on the issue of Egyptian withdrawal. They want 
assurances from us that the U.S. role will be one of insisting 
that this be Gaza first, not Gaza last. That is not so 
difficult.
    They want assurance from us that we will do what we told 
the Egyptians and everybody else that we would do at the time 
that Abu Mazen was Prime Minister, which is we would provide 
the equipment and some training for the Palestinian security 
forces. Now, that has not happened yet, but that is something 
the Egyptians want.
    They want an assurance from us that we will lead a 
significant donor effort. So in fact you will have real 
infusion of money and assistance into Gaza so that you can make 
this a going concern as the Israelis withdraw. So you build a 
stake of everybody there in having stability and calm. That is 
not so hard.
    The last one is going to be more difficult. They want 
assurances from us that as they work on the Palestinian 
requirements, they will also have some requirements for the 
Israelis, and they want us to ensure that their requirements 
for the Israelis will be met. And what are their requirements 
for the Israelis?
    One. This is one of the reasons I made the suggestion in 
the testimony that you cited. They are going to come to the 
United States, maybe not now but at some point. It is almost a 
given. They are going to say, look, we cannot only pressure 
Arafat, we have to give him something too. They will recognize 
maybe you cannot give him anything politically but at least 
give him the reality of being able to get out of the Muqata. 
And they are going to come to us with that, and we need to 
think about it before they come to us.
    Now, they are also going to come to us on something else. 
They are going to want a comprehensive cease-fire. David 
Satterfield made a reference to a comprehensive cease-fire. 
What does that mean in practical terms? It means if you get a 
hudna, which you had before, which you cited, Senator Chafee, 
on the Palestinian side when you get it, you do not use it as a 
respite to rebuild and retool and plan your next set of 
operations. But at the same time, if you really get it, on the 
Israeli side, the Israelis stop the targeted killings and they 
stop all the raids. And they will look to us to produce that.
    Now, from my own standpoint, the Egyptian role is critical, 
especially since no one else is playing it. I would like to see 
us playing a more active role. I would like to see us defining 
for ourselves what the requirements are, not having somebody 
else define the requirements and we respond to them. When I 
said we had no peace process, it is because it is the essence 
of the peace process that produced the Israeli decision to 
withdraw from Gaza. That is an Israeli decision. It was not 
because of American pressure, even an American conscious 
approach. That is fine. That is appropriate. But we should be 
defining the requirements for how to make the Israeli 
withdrawal work so it becomes a building block to transform the 
situation and it does not become only an end in itself.
    There is something else we can do. I heard constant 
questions about the role of the Quartet. The fact is there is a 
difference between us and other members of the Quartet on 
Arafat, do you deal with Arafat, do you not deal with Arafat. 
We say we do not deal with Arafat. I agree with that. They 
continue to deal with Arafat. I think it is a mistake on their 
part. But even if it was not a mistake, the one thing we could 
get the Quartet to do and the one thing we could get the 
Egyptians to do, if the Egyptians want us to play an active 
role in support, is to get them to go public about Arafat.
    Being tough with Arafat in private--let me tell you I spent 
more time with Arafat than any non-Palestinian and most 
Palestinians will say to me more time with him than them. Being 
tough with Arafat in private means exactly nothing. Arafat 
basically shrugs that off. He is used to it. It is when you go 
public and it is the traditional friends of the Palestinians 
who are seen as instinctively supportive of the Palestinians. 
If the Europeans who are seen as instinctively supportive of 
the Palestinians were publicly to say if we do not see, not 
just in private, as you were suggesting--or maybe you were 
suggesting, Senator, in public as well--if we do not see 12 
organizations in the security side turned into 3, if we do not 
see a clear chain of command, if we do not see a clear effort 
made to delegitimize the violence, something that was never 
done, then you lose our support. We favor Palestinian 
statehood. We are prepared to put our money where our mouth is. 
Europeans have done that. They have put a lot more into the 
Palestinians than we have. But we will not do it if the 
Chairman continues to obstruct this.
    Now, when I said before he pays attention to the 
Palestinian street, you have a lot of turmoil among the 
Palestinians right now, as we are seeing. If he believes that 
the Palestinian public says, wait a second, he is blocking us, 
and our friends are saying he is blocking us, guess what. His 
behavior will change.
    So one of the things we need to do is establish our own 
requirements and we should support the Egyptians but we should 
also make it clear what we require, and what we require right 
now is a readiness to go public. I do not care if that is a 
threat in private to begin with, as long as Arafat knows at 
some point they will all go public. Our going public in 
criticism of him right now means nothing because we do not have 
a whole lot of credibility with the Palestinian public. The 
Europeans going public or Arab leaders going public--and I can 
assure you that in private I have never heard a single Arab 
leader say something good about Arafat--if there is a readiness 
and he knows there is a readiness to go public, they will not 
even have to. He will get out of the way. He will stop blocking 
this.
    Let me just conclude with one overarching set of comments, 
and I will keep it brief.
    Because for the last 3-plus years we have had a war and not 
a peace process, the legacy on both sides has been terrible. 
The psychology on each side is not a psychology of loss of 
confidence. That simply trivializes it. There is a loss of 
faith and belief. There are some who say, go ahead, we know 
what the outcome is based on the year 2000. Even I would say 
the outcome is no longer a mystery. The problem is how do you 
get from where we are to the outcome. But to think that we can 
do it in one step, that we can outline the settlement and say, 
here it is, and it is going to be adopted is an illusion.
    You look at Palestinians. You ask them what their reaction 
to the Geneva Accords is, and basically they say we are against 
it. Why? Because they do not believe it will be implemented.
    You talk to Israelis and Israelis will tell you, even 
people that I have talked to in the settler movement, that they 
are ready to give up most of the settlements. They are ready to 
accept something like the Clinton ideas, but they do not 
believe the Palestinians will ever accept a Jewish state of 
Israel and they do not believe they will ever really give up 
terrorism instruments.
    And until you reestablish belief on both sides, you cannot 
now say, here it all is, because neither side will believe that 
it will be done. So you have to create a way station. The value 
of the Israeli decision of getting out of Gaza and at least 
four settlements in the northern West Bank is it creates an 
opening for you. Now you have to build on that opening. You 
have to create a principle wherever the Israelis are going to 
withdraw, the Palestinians are going to assume responsibilities 
and demonstrate the assumption of responsibilities and get 
others to get behind that.
    By the way, getting the Europeans to support something like 
that is not so hard. They are not against the Israelis getting 
out of settlements. They will support that. And they understand 
that the Palestinians have to assume responsibilities. We have 
to get them to go public with it. We have to build on the 
principle of Israeli withdrawal/Palestinian responsibility. And 
when we build on that principle and make it real on the ground 
and you do it now--I mean, whoever becomes President come 
January, if we have not done what we have needed to do between 
now and then, the task will be that much harder. But we will be 
spending our time at the beginning of next year trying to make 
the Israeli withdrawal work. If we make it work, it is a way 
station, and the way station creates two essential freedoms, 
which are the prerequisites for being able to then negotiate 
the final outcome. One is the Israelis need freedom from 
terror, and two is the Palestinians need freedom from Israeli 
control.
    I will stop there.
    [The prepared statement of Ambassador Ross follows:]

                 Prepared Statement of Amb. Dennis Ross

  TAKING ADVANTAGE OF A MIDDLE EASTERN MOMENT: THE NEED FOR AN ACTIVE 
                             AMERICAN ROLE

    While the world remains riveted on Iraq, there is a small glimmer 
of hope between the Israelis and the Palestinians. Prime Minister 
Sharon's intention to withdraw from the Gaza Strip has created an 
opening. To be sure, the prime minister must still find the way to 
overcome internal opposition to implement his decision, and given the 
opposition within his party and his own lack of a majority within the 
Knesset, this won't be easy. But his determination to implement his 
initiative, the fact that 70% of the Israeli public supports the 
disengagement plan, and the readiness of the Labor party to join a 
national unity government all suggest that Prime Minister Sharon will 
in time succeed in implementing his decision to withdraw from Gaza. In 
any case, it is clear from discussions I had recently in Egypt, the 
West Bank, and Gaza that the Palestinians and Egyptians are convinced 
that Israel is going to leave Gaza.
    Palestinians see both the opportunity and the danger in the Sharon 
initiative. They understand that once Israel is out of Gaza they can no 
longer blame failings on the Israelis and must be able to govern 
themselves. They must be responsible. Here is the chance to have good 
governance, and to demonstrate to the world that Palestinians are ready 
for statehood.
    The danger for the Palestinians is that their current fragmentation 
will be exacerbated after the Israelis withdraw, with heightened 
competition and even conflict, to see who can emerge dominant in Gaza. 
Yasir Arafat does not make the task any easier. He will certainly try 
to frustrate Palestinian efforts to forge internal understandings if he 
cannot look like the liberator of Gaza. Arafat's likely opposition will 
make the Egyptian task that much more difficult.
    For its part, Egypt tends to see Gaza more through the prism of 
danger than opportunity. The last thing Egypt wants is to have Gaza, 
sitting as it does on Egypt's border, either devolve into chaos or 
become dominated by Hamas. Stability in Egypt will not be served by 
either possibility. To avoid any such eventuality, Egypt is now 
determined to work with the Israelis and Palestinians.
    Ironically, the Sharon decision to leave Gaza has led Egypt to 
assume the role previously played by the United States. It is now Egypt 
that is seeking to coordinate Israel's withdrawal and the parallel 
assumption of responsibilities by the Palestinian Authority. It is now 
Egypt that is seeking to address Israeli security concerns to ensure 
that the withdrawal will be complete. And it is now Egypt that is 
trying to reorganize, restructure, and train Palestinian security 
forces and empower the Palestinian prime minister.
    Can Egypt succeed? It will not be easy. With both the Israelis and 
Palestinians, there will be difficult challenges that must be resolved. 
In Israel, Ariel Sharon may have made his decision to withdraw 
completely but he cannot ignore the concerns of the IDF, particularly 
at a time when his own party is resisting the withdrawal. Even before 
the first-ever killing of Israelis by a Qassem rocket in the Negev city 
of Sderot two weeks ago, the Israeli military worried about the 
smuggling of qualitatively more destructive weapons (Katyusha rockets, 
shoulder-fired surface to air missiles) into Gaza after Israeli 
withdrawal. From Gaza, Katyushas would be able to hit the port city of 
Ashkelon or a surface to air missile could bring down an Israeli 
aircraft; the IDF's concerns in this regard won't be met with slogans 
but with tangible, practical approaches for preventing either 
eventuality. That is why IDF has favored holding the Philadelphi route 
on the Gaza-Egyptian border, notwithstanding the Prime Minister's 
desire for full withdrawal. If Egypt wants the Israeli withdrawal to be 
complete, it will have to demonstrate to the Israeli military that it 
is acting to shut down the smuggling tunnels that run from its side of 
the border into Gaza. So far, the Israeli military leaders I spoke with 
remain unconvinced.
    But the challenge with the Palestinians may be even more demanding. 
Today the Palestinian Authority in Gaza simply does not function on 
security matters. There are different security organizations, tied to 
different factions of Fatah, and with different strongmen. If that were 
not enough, these competing forces must also contend with Hamas and 
Islamic Jihad. Egypt wants to create coherence by having Arafat permit 
the consolidation of the security organizations into three services 
with a professional chain of command and separated from Fatah. Egypt 
wants the leaders of the new consolidated security services to come to 
Egypt to reach understandings on their responsibilities, how they will 
be fulfilled, and how Egypt will monitor their performance while also 
providing them support. Only after reaching such understandings would 
the Egyptians then send several dozen advisors to work with and monitor 
the new security services in Gaza.
    It is a logical plan. While it has the support of the Palestinian 
Prime Minister, Ahmed Qurei, Yasir Arafat has given only grudging 
support to the plan--and even this under pressure from Hosni Mubarak 
and his intelligence chief Omar Suleiman. In truth, at this point 
Arafat's yes is in reality a ``no.'' He has not reconciled himself to 
giving up control of the security organizations or to allowing them to 
fulfill their obligations. (Terje Larsen, Kofi Annan's special 
representative in the Middle East, has complained about these very 
points in a presentation to the Security Council.) Does this mean all 
is lost? Not necessarily, but it will require constant pressure on him 
from President Mubarak, including the threat of going public about 
Arafat's obstructionism. Arafat may have little to fear from our 
criticism, but should the traditional friends of the Palestinian people 
declare that he is blocking efforts to advance the Palestinian cause, 
that could have a decidedly different impact on the Chairman.
    For Egypt to be willing to go public in its criticism of Arafat 
would represent a bold new step. In private, President Mubarak and 
other Arab leaders have never spared Arafat of criticism. But they have 
never been willing to make the same statements in public, perhaps 
fearing Arafat's ability to manipulate their publics about a betrayal 
of the Palestinian cause. Perhaps, Egypt's stakes in what happens in 
Gaza may change the traditional calculus. Perhaps, it will also 
motivate the Egyptians to press the Jordanians, Saudis, Moroccans, 
Tunisians and others to join it in being prepared to go public with 
criticism of Arafat. Should Arab leaders act collectively, they would 
feel less vulnerable to Arafat's charges; on the contrary, Arafat would 
be the one feeling vulnerable. And this may not be such a far-fetched 
idea as Arab leaders are evidencing increasing frustration with Arafat.
    But here there should also be no illusions. The readiness to put 
real pressure on Arafat to go along with the restructuring of security 
organizations and the assumption of meaningful security 
responsibilities will probably be tied to giving Arafat something. At a 
minimum, the Egyptians and others are likely to insist that Arafat be 
released from the Muqata, his virtual prison. Israel is likely to 
resist this, fearing Arafat's desire to return to Gaza as a hero and 
the need for him to pay a price for his continuing support for terror 
against Israelis.
    While sympathetic to the Israeli concerns, I favor Arafat being 
released from the Muqata. He certainly hasn't earned a release, but he 
is using his virtual prisoner status as a symbol of humiliation not of 
himself; but of the Palestinian people--and that resonates, building 
support for him and keeping reformers on the defensive. However, I 
would make Arafat's release to Gaza, not release for external travel, 
part of a package of understandings in which Arafat would not be able 
to go to Gaza until the security restructuring had taken place and 
there was actual performance for several months.
    The question remains can Egypt broker this kind of a package 
arrangement? Indeed, can it broker broader understandings between the 
Israelis and Palestinians on the timing of the steps the Israelis will 
take as they prepare withdrawal, the steps the Palestinians must take 
in response, the ways the handover of territory will be coordinated, 
and the specific areas where the IDF and the Palestinian security 
services will work together? Can it put all this together without also 
negotiating a comprehensive ceasefire that is not only an internal 
Palestinian hudna but involves the Israelis as well?
    All this is an extraordinarily tall order, and the Egyptians are 
unlikely to succeed, much less stick with the effort, without active 
American support. Already the Egyptian timetable of two months for 
Yasir Arafat to concede on the consolidation of Palestinian security 
forces suggests to some Palestinians and Israelis that the Egyptians 
are reluctant to push too hard at a time when they believe the 
Administration is otherwise occupied.
    I am afraid that the Egyptians may believe that the Administration 
will do very little before November, and while the Egyptians are 
prepared to take the lead, they definitely are counting on the United 
States for several things. First, they want an American public 
assurance that the Gaza withdrawal will be the first step, not the last 
of the process. Second, when they identify requirements for Israeli 
behavior (and this is likely to focus on releasing Arafat and stopping 
targeted killings and raids as part of a comprehensive ceasefire), they 
will want the Administration to press the Israelis to accept these 
steps.
    Third, they will want us to provide the material help we promised 
the Palestinian security organizations during Abu Mazen's time but 
never delivered. And, lastly, they will want us to lead an 
international donor effort that produces significant assistance for 
Gaza to show life can get better.
    I certainly favor American activism sooner rather than later. While 
I think Egypt has a very important role to play and am pleased by its 
readiness to play it, I would prefer to see the U.S. taking the lead. 
American leadership with Egyptian support is ultimately more likely to 
be successful than Egyptian leadership with U.S. support. Regardless, 
one point is very clear: the Israeli withdrawal from Gaza can be used 
to end the war between Israelis and Palestinians and make the 
resumption of a peace process possible. It can be used to create a new 
climate in which both Israelis and Palestinians have a chance to 
restore their belief again in peaceful coexistence. But the less that 
is done now to capitalize on this moment, the more that will need to be 
done later and the greater the risk that the moment will be lost. 
Middle East moments have a way of appearing and disappearing quickly, 
and, unfortunately, when they are lost, the situation is almost always 
worse than it was before.

    The Chairman. Well, thank you very much, Ambassador Ross, 
for a very comprehensive and important statement.
    We would like to hear now from Dr. Said.

   STATEMENT OF DR. ABDEL MONEM SAID ALY, VISITING RESEARCH 
  FELLOW, SABAN CENTER FOR MIDDLE EAST POLICY, THE BROOKINGS 
                          INSTITUTION

    Dr. Said. Thank you very much, Senator Lugar. I am really 
honored to be here. I must confess I am totally overwhelmed. It 
is my first time to be before such an honorable committee, and 
also I am overwhelmed because I feel that the perspective here 
is completely different from where I am coming from. So I will 
try to do my best to relate to you my honest opinion on a very 
complicated topic.
    Actually I am torn between responding to many of the things 
that were said, that I think were quite important, and sticking 
to my brief. I have already submitted my testimony. But I want 
to emphasize some, at least what I think are grand points that 
need to be emphasized even when we come into some of the 
details that we are discussing.
    The most important thing is that the Palestinian-Israeli 
conflict is a strategic conflict, and I mean by strategic 
conflict to bring to the minds here, it is like the German 
question that haunted European politics for about two 
centuries. This conflict actually haunted the Middle East 
politics for over a century, and I hope it will not stay with 
us for a second century.
    The second point, strategic conflicts are dealt with by 
grand strategy which I am afraid that many of the details we 
talk about really make us not look on the grand picture. The 
Palestinian-Israeli conflict is part of a region and this 
region has monopolized about 25 percent of conflicts since the 
Second World War. I think in that region that is called the 
Middle East, many of the conflicts that now the United States 
is involved directly like in Iraq are highly integrated. It is 
a totally, completely strategic, integrated region. Issues of 
the Palestinian-Israeli issue, terror, weapons of mass 
destruction, Iraq, civil wars, reform are all integrated.
    The third point I want to emphasize is that a short-term 
solution can work for a short time. Beware, however, they are 
short-lived and sometimes they are dangerously addictive. The 
major rule in the politics of the Middle East is that unless 
concerned parties do not come after the conflict, the conflict 
will come after them. Unless concerned parties launch peace, 
others will make war.
    The fourth point is a resolution of the conflict is 
possible. I believe it is possible. There is an international 
consensus on the parameters of the end road of the Palestinian-
Israeli disputes. However, the Arab side has resolved the 
Palestinian question by the Arab initiative, by identifying the 
solution of the Palestinian question in terms of the 1967 
boundaries, more or less. We need a similar position that 
resolves the Jewish Israeli question within the same 
boundaries.
    I think--and I may beg to differ--that it was mentioned 
that there is an absence of a Palestinian partner as the 
essence of the problem we are facing. That is part of the 
reality, but I believe the essence of the problem is 
occupation. We have a long-term vision for a two-state 
solution, but we never defined really in the record where these 
states will be. Even my dear friend talked about Israeli 
control. In our perspective it is outright occupation, and I am 
totally a bit surprised that the United States can talk about 
its occupation of Iraq freely but we cannot talk about the 
Israeli occupation of Palestinian and Arab territories.
    I will say--and that is another point--that progress 
happened in the past and it could happen in the future if we 
have four conditions.
    No. 1, serious American involvement at the highest level. 
We never really got progress unless President Carter in the 
past, President Bush in the past, President Clinton in the past 
really committed time and resources.
    The second one, that we have a majority of Palestinians and 
Israelis really agreeing on the final solution. So far we have 
public opinion polls that tell us that the mainstream Israelis 
and Palestinians agree on a certain type of a final status 
agreement. However, there is total mistrust now for different 
reasons and also we have forces that are working against that. 
I think that is where the problem lies in where we are going at 
this moment and what Egypt is really trying to do with the 
Palestinians. And we hope that you can do it with the Israelis.
    What we are trying to make with the Palestinians is another 
option. Actually we are fighting terror. We are fighting 
radicalism. We are fighting fundamentalism in the time we are 
trying to solve the Palestinian question or trying at least to 
move it forward. And that is a way to affect Arafat. I mean, 
what I heard here today about Arafat, he looks like a giant 
actually. That is a guy sitting in a Muqata. Actually he cannot 
have a shower without Israeli permission because they can 
cutoff water from him at any time they need, and at the same 
time it seems he is in control. He has no authority. He has no 
power. He has only moral and political influence. That will not 
be shaken without somebody else in the Palestinian ranks can 
come and say, here, I am bringing you an independent state in 
the 1967 borders.
    That is what I think Dennis was talking about, legitimacy 
of leadership. Arafat provided the legitimacy of a struggle. We 
have got to give the Palestinians the ability to have 
legitimacy of a recognized future. In this case, then we have a 
solution.
    A third condition is total Egyptian and American 
cooperation, and finally a clear plan.
    I will say that none of these conditions is really 
available enough. We have a bit of each of it. But I am afraid 
that now Egypt is using a lot of political assets, a lot of 
political investments in this process. I want to say here for 
this honorable committee that political assets and investments 
in the Middle East are not in abundance. They are short and 
sometimes they have a hell of a cost. I want to say that the 
Egyptian leadership really needs to be encouraged to continue 
in that path.
    Finally, I want to say that at this moment like many of the 
histories of regions of the world, you have defining moments. 
It is not per se the Palestinian-Israeli conflict. That is one 
of the conflicts--I am international relations expert and I am 
familiar a little bit of history. Conflicts continue sometime 
for too long. But actually the one I want to emphasize that the 
Arab-Israeli conflict is really measured with much larger 
conflicts. The events of September 11 here in this country have 
really put us into a new phase in world history I will say. 
That is very complicated. We do not see it completely, but 
really I see that you find the Palestinian cause is mentioned 
by people in Indonesia and people in the Philippines. There is 
no justification for terror, I will say, but something is 
simmering going on and this something is completely dangerous.
    The place we have to face it or the beginning of the line, 
it is not all the lines. It is a very complicated process. It 
is there in the Palestinian-Israeli one.
    I think the Arabs should have the courage to say we accept 
Israel among us. We have to build a future together through 
diplomacy and politics. We are threatened together by forces 
who want to terrorize our future.
    We need another commitment. I know it is difficult. I heard 
in this committee a lot of what Arafat should do and many of 
the things that were said were right. Arafat has got to have a 
central security apparatus. He has to have an efficient and 
reformed government. He has to build something to make the 
Palestinians feel that they will have a better state than the 
one they have.
    But at the same time, I have not heard the ``settlements'' 
once. I have not heard what can we talk and tell the Israelis 
what they do. I know it is difficult. I know it is difficult in 
an election year situation. But I think it has to be said not 
only for the sake of us in the region, which is very important, 
but for the sake of Palestinians, Israelis, and Americans.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Said follows:]

               Prepared Statement of Abdel Monem Said Aly

                 I. INTRODUCTION: A STRATEGIC CONFLICT

    The history of the Arab-Israeli conflict is full of moments of 
success, and plenty of failures and lost opportunities. For the last 
four years, the Palestinian-Israeli part of the conflict has defied all 
plans for reconciliation the latest of which is the Road Map.
    The Egyptian plan could face the same fate unless it was treated by 
the United States and of the world concerned community in much more 
serious ways than what is already taking place.
    Plans and initiatives do not work in their own, or because of their 
internal consistency and logic, or because they are just and fair, or 
even because they are accepted by the parties; but rather because there 
is a political commitment that understands the gravity of the situation 
and has the stamina, the patience, and the resources to achieve 
results.
    Such a commitment will not be obtained unless the concerned 
parties, particularly the. United States, have come to the conviction 
that the Arab-Israeli conflict is endowed by three characteristics:
    First, the conflict is a conflict of strategic magnitude. It is not 
a dispute that time will ameliorate its acuteness, reduce its agonies, 
heal its wounds, and ends its pains. The Arab-Israeli conflict has been 
one of the most important chapters of the cold war and now it could be 
the most important chapter in the war against terror. Without any 
exaggeration, it will be at the center of the ``Clash of 
Civilizations'' if the predictions of Samuel Huntington, and, 
ironically in a completely different way, Osama bin Laden ever come 
true.
    Second, the conflict is part of a larger regional context. A 
strategic conflict is by definition a protracted one with security, 
social and political implications that go beyond the direct interests 
of the conflicting parties. The Middle East regional context of the 
Arab-Israeli conflict is a highly integrated strategic area in which 
all the subjects of Iraq, Palestinian-Israeli problems, terror, reform, 
fundamentalism, are all related and interdependent. Unless all the 
concerned parties, particularly the United States, understand the 
regional and the global reach of the conflict, the commitment to solve 
it will not be obtained.
    Third, the Arab-Israeli conflict is in a state of flux and change. 
It is as many issue areas in the Middle East such as Iraq and reform 
are in transition. And transition is a state of uncertainty and the 
competition of opposing forces. Those are the times when the devils of 
history do not wait much for presidential election cycles, nor could 
they wait for plans or initiatives to be stacked for posterity. One of 
the greatest achievements of the peace process in the last three 
decades has been the transformation of the Arab-Israeli conflict from 
being an existential conflict to be a conflict about how can the Arabs 
and Israelis live with each other. Such achievement in the time of 
transition is susceptible to reversals by forces that opposed peace 
from the start.

                      II. THE EGYPTIAN INITIATIVE

    If such understanding of the strategic magnitude of the conflict, 
its regional context, and its transitional nature has established the 
commitment for the resolution of the conflict, the Egyptian initiative 
will have a chance for success. The measure of success is to jump start 
the peace process and put it back into the Road Map track. So far, the 
Egyptian initiative has achieved the following:

          1. It has kept the interest in Sharon unilateral 
        disengagement plan going despite the series of setbacks in his 
        own Likud party who voted against his plans and the constrains 
        which are imposed by his cabinet on the substance and the 
        timetable on his initiative.

          2. It has initiated a dialogue process within the Palestinian 
        political factions for a strategic and political program to 
        reach an independent Palestinian state that live in peace side 
        by side with Israel, the Jewish state, according to President 
        Bush's vision of a two state solution to the Palestinian-
        Israeli conflict. Such a dialogue will include the unification 
        of security organs under one single leadership and will be 
        concluded in Cairo, hopefully, before November 2, 2004. Just on 
        time for the new American administration to take action if it 
        so will.

          3. It has the support of the Palestinian public. According to 
        a public opinion poll conducted by the Palestinian Center for 
        Policy and Survey Research (PSR) in 24-27 of June, 2004, 64% of 
        the Palestinians support the initiative and 32% oppose it. 
        Support for the various aspects of the initiative varies but 
        all indicate a willingness to make it succeed: 81% for the 
        unification of the security services under the control of the 
        cabinet, 87% for the appointment of a strong minister of 
        interior, and 53% for the deployment of Egyptian military 
        advisers and security experts in the Gaza Strip.

          4. It has initiated a process of Egyptian-Israeli dialogue, 
        coordination and cooperation over issues related to the 
        disengagement plan such as the tunnels and the use of Israeli 
        forces in Gaza near the Egyptian borders. And, over other 
        issues that are neither related to the disengagement plan nor 
        to the Egyptian-Israeli peace treaty such as the QIZs and the 
        export of Egyptian gas to Israel.

          5. It has filled the diplomatic vacuum that was generated by 
        the American engagement in Iraq and the coming presidential 
        elections. The meetings of the Quartet started to give a sense 
        of new possibilities for the peace process. As Henry Kissinger 
        once said: the Arab-Israeli peace process is like riding a 
        bicycle uphill, you have to keep going up, or you will fall 
        down. The Egyptian initiative is struggling to continue upward.

    All these are tactical achievements, temporary, and all reversible. 
Few trends are emerging to endanger the Egyptian initiative:

          1. There are several negative changes in the original Israeli 
        unilateral disengagement plan that is making it less and less 
        attractive to the Palestinians and the rest of the Arab World. 
        The plan which is supposed to achieve a clean Israeli 
        withdrawal of forces and settlements from Gaza and part of the 
        West Bank has been staged over a long period of time and always 
        subject to Israeli cabinet approvals, and maneuvers. The new 
        amendments have allowed for several Israeli types of control in 
        Gaza which makes the withdrawal more as redeployment of forces 
        than being a serious disengagement.

          2. The Israeli side is refusing to link the disengagement 
        plan to the Road Map. The best that the Israeli leadership is 
        coming with is that its plan is not inconsistent with the Road 
        Map. As the Road Map is having three stages, and Israel is 
        planning now to withdraw, or redeploy its forces, in three 
        stages, the absence of a direct linkage with the Road Map is 
        undermining Egypt's position and its legitimacy in Egypt and 
        the Arab World regarding involvement in the Israeli-Palestinian 
        negotiations.

          3. Most thoughtful observers in Israel are indicating that 
        the essence of the Sharon plan is to consolidate the Israeli 
        presence in the West Bank. Former Israeli Labor minister 
        Ephraim Sneh wrote to the Israeli Policy Forum in July 13, 
        2004: ``He (Sharon) expects that leaving the Gaza Strip will 
        enable him to assume greater control over the West Bank, 
        perhaps annexing at least half of it.'' Neither Egypt, nor the 
        world, has any interest in allowing Israel to have a de facto 
        annexation of the West Bank or parts of it. Israeli leadership 
        did not make any effort to alleviate such worries.

          4. The process of building settlements in Gaza and the West 
        Bank have not abated but rather it shows signs of acceleration. 
        Excessive Israeli violence against the Palestinian populations 
        has put the Egyptian initiative in serious danger of being like 
        condoning Israeli behavior.

          5. The American letter of assurances to Prime Minister Sharon 
        in April that touched upon final status issues did not achieve 
        its original objective of helping Sharon to win the support of 
        his Likud members, nor has it helped the peace process. It was 
        an embarrassment to Egypt and its efforts.

    These negative developments have sucked some of the air out of the 
Egyptian initiative. However, the Egyptian leadership continued its 
efforts to make the disengagement plan possible if it ever is going to 
be implemented. But, unless there is a genuine help from the United 
States and the other Quartet members, Egyptian initiative will be added 
to a long list of failed attempts to resolve the conflict.

                 III. WHAT CAN THE U.S. AND OTHERS DO?

    The external support should utilize the available assets that are 
available in order to chart a meaningful process that will make the 
resolution of the conflict possible.
    The first asset is the Egyptian and Jordanian peace agreements 
which give a living proof of the long lasting rewards of peace; namely 
the end of hostility and belligerence, the return of occupied 
territories, and the commitment to the peaceful resolution of the 
conflict. These agreements have created stakes for Cairo and Amman to 
continue the search for peace in the region.
    The second asset is the Palestinian and the Israeli citizens who 
want to live in peace. Despite the bloodshed since September. 2000, 
public opinion polls in Palestine and Israel all indicate that the 
majority of the population on both sides still favors the peace 
process. Israeli polls have shown increasing acknowledgement of the 
impossibility of a military imposed resolution of the conflict. On the 
Palestinian side also there is more acknowledgement of the futility of 
suicide bombing targeting civilians, as a means to advance the national 
interest.
    The third asset is an emerging consensus over a historical 
compromise which responds to the minimum requirements of both parties; 
i.e. Israeli withdrawal from territories occupied in 1967, equal 
exchange of 3% of the land, and establishing the Palestinian state with 
East Jerusalem minus the Jewish quarter and the wailing wall as its 
capital, whereas West Jerusalem plus the Jewish quarter and the wailing 
wall becomes the capital of Israel, and a just settlement of the 
refugee problem that does not deny the right of return, while 
preserving the Israeli demographic balance at the same time. The Geneva 
accords are a living evidence of the possibility of agreement between 
the two sides. Today, we miss the tunnel, but most already see the 
light at its end.
    The fourth asset is the international support for a peaceful 
resolution of the Middle East conflict. This support has become more 
institutionalized through the Quartet; the U.S., the EU, Russia, and 
the UN.
    The fifth asset is the Arab initiative supported by Egypt and Saudi 
Arabia who are in fact the backbone of the Arab world. Saudi Arabia has 
informed the U.S. that it will be willing to implement the 
normalization process with Israel upon signing a peace agreement 
between Israel and the Palestinians. Israel could have normal relations 
with the majority of Arab states upon accepting withdrawal from the 
Arab occupied territories in 1967. Elsewhere Shai Feldman and I have 
outlined the possible use of the Arab initiative in supporting the Road 
Map process. (Ecopolitics: Changing the regional Context of Arab-
Israeli Peace Making, Harvard University, August 2003).
    The sixth asset is that an absolute failure of the peace initiative 
will mean a nightmare for the Palestinians and Israelis. After four 
years of futile warfare, both societies have lost opportunities for 
peace and for economic and social progress.
    These assets are encountered with serious liabilities:
    First, there is no trust left between the Palestinians and Israelis 
as a result of four years of intensive fighting that shattered the good 
will that was developed during the implementation of the Oslo 
agreements.
    Second, there are active and highly potent minorities in both sides 
that are more determined to prevent a historical reconciliation between 
the Arabs and Israelis.
    Third, other problems in the Middle East and elsewhere are always 
capable of distracting international attention from the peace process. 
The war on terror and the war in Iraq have put the Palestinian conflict 
away from the priorities of the international community particularly 
the United States.
    Fourth, there is some sort of a diplomatic fatigue in the Middle 
East conflict. The failures of many diplomatic initiatives have created 
reluctance in the United States and even in Europe to invest the 
necessary political resources in the settlement of the conflict.
    Fifth, American Presidential cycles always disrupts the working for 
peace in the Middle East.
    The balance between assets and liabilities will be decided by the 
American strategic evaluation of the conflict and its centrality to 
other Middle East interests. These interests include success in Iraq, 
victory over terror, increasing the space for reform in the Middle East 
countries, in addition to all other traditional American interests in 
the region such as oil, security of Israel, and stability in the 
region.
    As has been mentioned above, the United States and its partners in 
the Quartet should deal with the Arab-Israeli conflict as strategic 
conflict, in a highly integrated strategic area, going through 
uncertain transitional period with highly historical implications.
    If that is the case, it has to be understood from the start that 
the Egyptian initiative is limited to bridge the current situation to 
the first phase of the Road Map. As Egyptian-American cooperation has 
been essential in all the previous successes of the peace process 
through out the 1990s, continued cooperation between Cairo and 
Washington is necessary.
    Attempts to pollute the air between the two capitals at this stage, 
and in particular through using the Assistance program, or playing up a 
non-issue such as the Gaza tunnels, will not be helpful, and will shift 
the Egyptian-American dialogue away from advancing the causes of peace 
and change in the region. In fact, now is the time to appreciate 
Egyptian efforts on the Israeli-Egyptian borders and increase American 
help and assistance to Egypt in order to build a coalition of 
moderation in the region. This coalition will not be only instrumental 
in working for peace in the Middle East but also it will be a 
cornerstone for the rebuilding of the region.
    More specifically, the United States and its partners could help 
Egypt in her efforts to bring this strategic objective closer by doing 
the following:

          1. Make a commitment for the original Sharon Plan of clean 
        disengagement and make it clear that the plan is part of the 
        first phase of the Road Map. Subjecting Egyptian effort to the 
        changing winds of Israeli politics will put in doubt the 
        chances of Egypt's success, and even its continued engagement.

          2. Support this commitment by a congressional bipartisan 
        resolution that will make American policy in the Middle East 
        less likely to be affected by domestic American politics.

          3. Support an active international, and in particular 
        European, security role in the areas that Israel will withdraw 
        from, and convince Israel to accept.

          4. Work out a formula for Palestinian legislative and 
        Presidential elections and a referendum on a two state solution 
        to the Palestinian-Israeli conflict. Such a process will help 
        to give the PA the legitimacy it badly needs and isolate the 
        extremists. And, do that soon enough before the support for the 
        Egyptian initiative erodes.

          5. Give material support and assistance in the rebuilding of 
        Palestinian institutions particularly security ones.

          6. It is important for the Palestinians to feel that a change 
        is taking place in their lives and the Gaza first will not be 
        Gaza last. Therefore, make sure to open the Gaza airport and 
        the corridor between Gaza and the West Bank.

          7. Ask Arab countries to restore their relations with Israel 
        once the IDF withdrawal takes place from Gaza and to 
        communicate to the Israelis in different ways their commitment 
        to the Arab peace initiative.

          8. Make preparations and consultations for the next phase of 
        the Road Map particularly as related to the international 
        conference which is responsible for starting the final status 
        negotiations.

          9. Create support for the Geneva accords in both sides 
        through hearings, congressional missions, dialogues, and other 
        tools.

          10. Work out a formula that will deal with contingencies such 
        as terror acts against Palestinian civilians and suicide 
        bombings.

                            IV. CONCLUSIONS

    There are moments in history that are more important than others 
are. They come usually after defining times that make what is after 
significantly different from what was before.
    These defining moments came to the world and the Middle East after 
World War II, the end of the Cold War, and now after September 11th and 
the wars in Afghanistan and Iraq.
    Now is the time to act to change the course of history in the 
Middle East, and the world. Failure to do so will be a submission to 
the law of nature. And, when nature takes its course all parties loose.
    The beginnings of the loss are already there. Palestinians are 
deprived not only of their national goals but also from the basic needs 
of life. In fact, life has become not more rewarding than death. And, 
let me stray here from my line of thought to elaborate on this point. I 
might have been the Arab World's most vocal and consistent critic of 
the Palestinians' use of violence, and the particular tactic of suicide 
bombing.
    I always thought that it is morally wrong, and politically harmful 
to a cause I believe is just. It is important to understand, though, 
that such acts are the result of a distorted mind and a desperate soul. 
Those minds and souls will not be cured by encirclement and punishment, 
if anything; this will most definitely lead to even worse kinds of 
behavior. The best antidote for this downward spiral and I am talking 
out of first hand knowledge, and a genuine desire for an end this 
spiral, is hope.
    Israelis are not much better. Walls now surround the national dream 
of a safe and accepted homeland. Israel is increasingly becoming the 
largest ever-Jewish ghetto in history. Other regional powers are 
totally entangled in a conflict that so far resisted solutions, their 
national agendas are delayed and extremism is ready to attack.
    It could be a dim future indeed. Now is the time to change this 
future. It is time for a long-term vision not a short term management 
of events. It is the time for strategy not tactics. It is the time to 
deal with history by creating a better future, not by eternally 
reliving the past.

    The Chairman. Thank you very much, Dr. Said.
    We would like to hear now from Mr. Miller.

   STATEMENT OF AARON DAVID MILLER, PRESIDENT, SEEDS OF PEACE

    Mr. Miller. Mr. Chairman, first, let me thank you and 
Senators Biden and Chafee for the opportunity to present here 
today, as well as other members of the committee. With the 
possible exception of the outcome of American policy in Iraq, 
there is no more important issue to American credibility and 
interests than the pursuit of Arab-Israeli peace.
    Over the course of the last 25 years, I had the honor to 
serve as an advisor to the last six Secretaries of State on 
Arab-Israeli negotiations, including until January of last year 
for Secretary Powell.
    During the course of these years, I developed a profound 
faith in three basic propositions. I believed in them when I 
started. I believed in them when there was a peace process 
worthy of its name, and I believe in them now when everything 
we have worked to achieve lies broken and bloodied somewhere.
    First, there is an equitable and durable solution to the 
Arab-Israeli conflict. There is no perfect justice but there is 
one that meets the needs and requirements of all sides.
    Second, the only way to achieve this solution is through a 
flawed and imperfect process of negotiation, negotiation based 
on a balance of interests, not on an imbalance of power.
    And third, there can be no solution, even in an existential 
conflict, which the Israeli-Palestinian conflict very much is, 
without the engagement of the United States as a full partner.
    I raise these tenets because they inform what you are about 
to hear from me and they informed the policies of my government 
during the course of the last 30 years. What I would like to do 
is offer six quick observations about Gaza disengagement and 
American reengagement with one cautionary note. Whether it is a 
second Bush administration or a Kerry administration, it is 
absolutely critical that the next administration begin to craft 
a serious and a sustained approach to Arab-Israeli peacemaking 
because Arab-Israeli peace is perhaps one of the few issues in 
the international system today in which three very important 
elements coincide for us: our national interests, our moral 
interests, and our capacity demonstrated over four decades to 
make a bad situation not perfect but to make a bad situation 
better. Six brief observations.
    First, the focus on unilateralism, specifically Gaza 
disengagement, is a response to a structural crisis in the 
pursuit of Arab-Israeli peace. For the first time in a decade, 
there is no serious process of engagement between empowered 
Israelis and Palestinians. For the first time in a decade, 
there is no framework, no Madrid, no Oslo, no permanent status. 
And frankly, at the moment, zero chances of implementing the 
Road Map. For the first time in a decade, there is no trust and 
no confidence between these parties, and for the first time in 
a decade, there is no meaningful, serious and sustainable U.S. 
role as a third party.
    Without over-dramatizing, I would argue to you that this 
structural crisis presents a huge challenge to the one 
instrument that has delivered agreements both between Israel 
and Egypt, Israel and Jordan, and a heroic attempt between 
Israelis and Palestinians, which has to date failed, and that 
is the notion of bilateral direct negotiations sometimes under 
U.S. auspices, sometimes without.
    Second, as presently articulated, the chances for 
unilateral implementation of the Israeli disengagement plan are 
probably unworkable. At the same time, that plan represents the 
first serious, the most serious initiative undertaken by any 
party, including the United States, during the course of the 
last 4 years. It seems to me obvious that as a point of 
departure, as a reentry point--Dennis described it as a way 
station--back into a meaningful process, this disengagement 
should be the focus of everyone's efforts, but it is going to 
have to be modified substantially. In my written testimony, I 
point out four or five critical modifications that I suspect 
will have to take place if it is going to be implemented 
successfully and not leave in its wake more confusion, more 
trouble, more terror than currently exists at the moment.
    Third, political realities and circumstances at the moment 
on both sides will contribute to the non-implementation of this 
particular initiative. On the Israeli side--and I am not under 
the constraint that my colleague, David Satterfield, is under, 
although I am under certain constraints--it seems to me a 
political center will have to emerge. I am not going to define 
it whether it is a national unity government, whether it is an 
expanded coalition in some way, shape, or form. Oddly enough, 
the people of Israel are well out ahead of their politicians in 
this regard, and it may well be for the first time in a decade 
that that popular will can express itself. But there is going 
to have to be a political center capable of implementing 
unilateral disengagement.
    On the Palestinian side, there is either going to have to 
be a reckoning, which I doubt is going to happen, or some form 
of modus vivendi or reconciliation between Fatah, the dominant 
secular movement, however divided it may be, and Fatah's 
Islamists and secular opponents because what has been lost 
these many years--and if you really want to talk about the true 
Palestinian transgression, it is not Mr. Arafat's refusal to 
accept what was offered at Camp David. It was not. It is the 
willing acquiescence in the loss of the monopoly of the forces 
and sources of violence within Palestinian society. Whether you 
are the District of Columbia or the State of Ohio or the United 
States, you must preserve control of the forces and sources of 
violence within your society. Otherwise you have no credibility 
with your own constituents and certainly none with your 
neighbors. That monopoly on force and violence must be 
reacquired.
    Fourth, because nothing ever happens quickly between 
Israelis and Palestinians, unilateral disengagement in my view 
will remain, however serious the preparations for it, a virtual 
initiative until some time in 2005. Whether it is early, mid, 
late is unclear. Our Presidential elections, as they often and 
usually do, will delay matters further, and I doubt frankly 
whether the administration will be prepared during the next 3 
or 4 or 5 months to raise its profile, nor I suspect will this 
issue, that is to say, the issue of Arab-Israeli peace, become 
a significant topic of debate, serious debate, within the 
campaign for a variety of reasons.
    In the interim, that is to say, between now and the end of 
this year, there are things that we can do, but they are going 
to be modest because we do not have the moment for movement 
right now. Encourage the Israelis and Palestinians to discuss 
day-after scenarios. Continue to support the Egyptian efforts 
to forge consolidation among security services and also focus 
the Israelis on their responsibilities for dismantling 
settlements outposts and also to have a serious discussion with 
them on settlement activity.
    Fifth, the next administration, whether it is a second Bush 
or a Kerry administration, as it crafts its approach to this 
issue, will have to deal with three realities, which are sad 
realities. I cannot change them. I wish I could.
    No. 1, the Israel-Palestinian negotiation, unlike Israel-
Egypt and Israel-Jordan, is not based on a balance of 
interests. Negotiations succeed when they are based on a 
balance of interests whether it is a good marriage, a good 
business proposition or a good friendship. When each party has 
their mutual needs and requirements met, negotiations succeed; 
when they do not, the negotiations do not succeed. Israel-Egypt 
succeeded because it was based on a balance of interests. 
Israel-Jordan succeeded because it was based on a balance of 
interests. Israelis and Palestinians, no. It was based on an 
asymmetry of power, hopelessly skewed. Palestinians wielded the 
power of the weak, which is a terrifying power. It is the power 
to acquiesce as the weakest party to a negotiation to say this 
is not my fault. This is not my responsibility. I can acquiesce 
in a range of behaviors, including suicide terror, because I 
cannot do anything about it. And Israelis, on the other hand, 
wielded the power of the strong, the capacity to act at will 
not in legitimate defense of their security requirements. No 
one is doubting or disputing that right. But in defense of a 
variety of policies, including land confiscation, settlement 
activity, housing demolitions, which do not contribute, 
frankly, to the security of the state of Israel, let alone to 
the facilitation of the Arab-Israeli peace process. That 
asymmetry of power needs to be addressed.
    Second, we are out of the age of heroic politics when it 
comes to Arab-Israeli peacemaking for now. Sadat and Begin, 
Rabin, Peres, King Hussein, Arafat in his first incarnation, 
the leaders capable of taking the existential decisions are not 
there now, and that is a reality which any American 
administration is going to have to deal with.
    And finally, progress is likely to be slow and incremental 
but it will not come--it will not come--without a major 
initiative on the part of this government.
    Finally, the elements that any next administration will 
have to consider:
    One, make this issue a priority, make it a real priority, a 
Presidential priority, not that the President has to engage, 
but it has to be unmistakably clear that we care about this.
    Second, empower a diplomat to work this issue creatively 
and actively. Whether it is the Secretary of State or a special 
envoy, empower that person.
    Three, do serious diplomacy, 24/7 diplomacy. There is 
nothing wrong with the Road Map, but there are no benchmarks. 
There are no performance standards. There are no time lines. 
There are no monitoring mechanisms. It is not a dynamic 
document. We can make it a dynamic document. Difficult, but we 
can do it.
    Mobilize Arab support. And I think that will be easier once 
we engage.
    And finally, define a political horizon, not a Geneva 
agreement. Do not negotiate for the parties. But begin to craft 
non-threatening parameters about where we are going in this 
process.
    Let me close with one brief observation. The stakes here 
are very high. There was a war in every single decade of the 
last century in the modern incarnation of the Arab-Israeli 
conflict, 1948, 1956, 1967, 1973, 1982. The 1990s came and went 
without a major Arab-Israeli war, and there was a reason for 
that. Under a Republican administration, you had Madrid with 
engagement. Under Democrats, you had Oslo, however failed a 
process it was. You had the Israeli-Jordanian peace treaty. You 
had serious Israeli-Syrian negotiations.
    My real concern here today is that if this idea that 
negotiations cannot be used to resolve problems dies and if we, 
by a sin of omission or commission, contribute to that fact, 
then we risk surrendering the field to the forces of history. 
And if they could speak to you here today, here is what they 
would say. They would say we know how this conflict is going to 
end. We do. There is going to be one winner and there is going 
to be one loser. And no one who cares about American national 
interests, no one who cares about the security and well-being 
of the State of Israel, no one who cares about any sense of 
justice for Palestinians or Arabs can afford to court that kind 
of outcome.
    Thank you very much.
    [The prepared statement of Mr. Miller follows:]

                Prepared Statement of Aaron David Miller

  GAZA DISENGAGEMENT AND U.S. REENGAGEMENT IN ARAB-ISRAELI PEACEMAKING

    Mr. Chairman, members of the Committee: it's an honor to have the 
opportunity to testify today on the pursuit of Arab-Israeli peace and 
American efforts to address the current Israeli-Palestinian crisis.
    Over the past twenty-five years, I have had the privilege to serve 
as an advisor on these matters to the last six secretaries of state, 
including until January of 2003, to Secretary Powell.
    During this period, I developed a profound faith in three 
propositions. I believed in them when there was a peace process worthy 
of the name, and I believe in them now when everything reasonable 
Israelis, Arabs, and Americans sought to achieve lies broken and 
bloodied:

          1. There is an equitable and durable solution to the Arab-
        Israeli conflict--no perfect justice but one that can satisfy 
        the needs of all sides;

          2. This solution can only come about through negotiations 
        based on a balance of interests not on a skewed balance of 
        power;

          3. There will be no serious negotiations, let alone solutions 
        without the U.S. engaged as a full partner.

    These propositions shape my testimony today just as they have 
shaped the policies of the U.S. government for the past thirty years. 
We cannot afford to abandon them; to do so means abandoning any hope 
for a solution and surrendering the field to the crueler and more 
impersonal forces of history and to continued confrontation.
    I would like to use my time with the committee to share my 
observations of Gaza disengagement, what might need to be modified to 
make it succeed, and what elements a second Bush or a Kerry 
administration will need to consider if they undertake--as I hope they 
will--a serious and sustainable U.S. approach to Arab-Israeli 
peacemaking.
    First, the focus on unilateral actions, specifically unilateral 
disengagement from Gaza, is an outgrowth of the profound crisis in the 
entire structure of Arab-Israeli peacemaking. For the first time in a 
decade, there is:

          1. No serious negotiation between empowered Israelis and 
        Palestinians;

          2. No mutually agreed framework within which to negotiate--no 
        Madrid, no Oslo, no permanent status parameters, and no chance 
        right now for the road-map;

          3. No trust and confidence between leaders who are driven by 
        zero sum game politics instead of common vision or for serious 
        progress;

          4. And no third party U.S. role to facilitate, bridge gaps, 
        or defuse crisis.

    Without over-dramatizing, what is now at stake is a threat to the 
very structure that delivered two successful peace agreements between 
Israel and Egypt and Israel and Jordan and a heroic attempt to produce 
a third between Israelis and Palestinians: bilateral negotiations--
sometimes direct, often under U.S. auspices to reach agreements. 
Indeed, unilateral solutions without reciprocity are a dangerous 
precedent which will not resolve conflict, leave a thousand problems 
unaddressed, and could paradoxically demonstrate weakness and court 
terror.
    Second, as presently constituted--and under prevailing political 
conditions among Israelis and Palestinians--unilateral disengagement is 
probably unworkable. At the same time, it's the most important idea 
proposed by any party in four years of confrontation. With substantial 
modifications, the Israeli initiative might be used as a reentry point 
for re-launching a serious interim Israeli-Palestinian negotiation and 
over time, reengaging in permanent status issues. Modifications would 
have to include:

          1. A direct empowered Israeli-Palestinian dialogue. ``Day 
        after'' Gaza withdrawal issues demands it;

          2. A meaningful link in time and substance to the West Bank. 
        Gaza first cannot become Gaza only;

          3. Palestinian reciprocity. In the Middle East, giving 
        requires getting. Even the current Egyptian effort to force 
        consolidation of PA security services and a ceasefire reflects 
        this;

          4. The Arafat problem will need to be addressed;

          5. Defining a political horizon. Even if it is fashioned as a 
        set of commonly accepted principles, there needs to be hope of 
        a broader political process. Here the U.S. role is critical.

    Third, political realities and circumstances will need to change 
among Israelis and Palestinians if there is to be a serious political 
process.

          1. On the Israeli side, either a National Unity Government or 
        new elections will be necessary to ensure a political center 
        capable of serious movement;

          2. On the Palestinian side, either a reckoning or a 
        reconciliation will be required between Fatah and its Islamic 
        and secular opponents leading to a ceasefire and/or a monopoly 
        by a centralized authority over forces of violence within 
        Palestinian society.

    Fourth, because nothing ever happens quickly between Israelis and 
Palestinians, unilateral disengagement will remain virtual at least 
until early in 2005. Our presidential elections will further delay 
matters as all sides await the outcome. And the political realities--
Republican and Democratic alike--will ensure that the Administration 
does not raise its profile on this issue; nor that it emerges as a 
topic of serious debate in the campaign.
    In the interim, during the remainder of the year, the best possible 
approach would be to try to:

          1. Encourage serious Israeli-Palestinian discussions on Gaza 
        withdrawal, particularly day after scenarios;

          2. Continue to support Egyptian efforts to consolidate 
        security services, promote inter-factional dialogue, and 
        identify elements for a ceasefire;

          3. Focus Israelis on their responsibilities for removing 
        settlement outposts and launch honest discussion on West Bank 
        settlement policies while focusing Palestinians on their 
        obligations for combating terror and promoting reform;

          4. Intensify public diplomacy in the region highlighting U.S. 
        commitment to continue efforts to advance a two-state solution 
        and to resolution of all permanent status issues.

    Fifth, the next Administration will seriously need to consider how 
to engage on the Israeli-Palestinian issue. With the possible exception 
of the outcome of our efforts in Iraq, no issue is more critical to 
U.S. influence and credibility in the region. And there are few issues 
on which American national and moral issues coincide with something 
else: a demonstrated capacity to make a bad situation much better. 
Whatever approach the next administration adopts, three realities need 
to be faced up to squarely:

          1. Oslo failed because unlike the Egyptian-Israeli and 
        Jordanian-Israeli negotiations, it was not based on a balance 
        of interests but on an imbalance of power. The skewed asymmetry 
        in which Palestinians wield formidable power of the weak 
        (abdication of security responsibilities and acquiescence of 
        terror) and in which Israelis wield power of the strong (the 
        capacity to create settlements and confiscate land) must be 
        addressed and corrected;

          2. The age of heroic politics and leaders in Arab-Israeli 
        peacemaking is over for now. In the absence of leaders with 
        vision able to bring along their constituencies, progress will 
        be slow, incremental;

          3. Even incremental progress will be unlikely without a much 
        more proactive and assertive U.S. role.

    Sixth, with a leadership role consisting of the following elements, 
the next Administration could transform the situation on the ground 
within six months and create an environment for serious negotiations, 
even over time, on permanent status issues:

          1. A real priority: The President must make it unmistakably 
        clear that the Arab-Israeli issue is a top priority and that 
        the Administration is unified on the issue;

          2. High level attention: Empowerment of the Secretary of 
        State or a high level political envoy with the President's full 
        confidence to assume 24/7 responsibility for this issue;

          3. Serious U.S. diplomacy: The Road Map is an important 
        instrument but it needs a third party as a driving force to 
        create timelines, sequenced responsibilities, benchmarks, and 
        performance standards with accompanying monitoring mechanisms;

          4. Behavior on the ground: The parties must be focused 
        initially on changing behavior on the ground: Palestinians on 
        combating terror and violence, the Israelis on a freeze on 
        settlements and related activities;

          5. Arab state support: Only if we stand up will we get the 
        support we need from key Arab states. That support needs to be 
        directed at pressing Palestinians on security but supporting 
        them as well politically and financially blocking funds and 
        support for Hamas/Jihad; and reaching out to Israel with 
        confidence builders as the situation improves;

          6. Define a political horizon: re-launching negotiations on 
        permanent status is not possible right now. But the U.S. in 
        association with others can create a non-threatening political 
        horizon that outlines general principles required for a 
        negotiated settlement. This should not be a detailed blueprint 
        (the parties need to negotiate that). But it should lay out 
        parameters for resolution of key issues.

    Finally, I would be remiss if I did not briefly allude to an issue 
of great importance to the United States and to this committee. 
Specifically, the challenge of dealing honestly with the image of 
America in the Arab and Muslim world and the need to generate more 
effort and resources to eliminate the misperception, confusion, and 
stereotype that now surround that image.
    Seeds of Peace has been involved now for more than a decade in 
trying to promote understanding between Arabs and Israelis, Indians and 
Pakistanis, and Greek and Turkish Cypriots. This summer we will be 
running a new program called Beyond Borders which will bring young 
Arabs, including Saudis, Kuwaitis, Iraqis, Yemenis, Egyptians, and 
Jordanians, together with young Americans for two weeks of intensive 
dialogue. In the spring of 2005, the entire group will have a regional 
follow-up experience in Jordan. In the years ahead, I hope to be able 
to offer this experience to hundreds of young Arabs and Americans.
    Mr. Chairman, these may well be generational conflicts, and we are 
in danger of losing an entire generation of young Arabs, Palestinians, 
and Israelis to forces of hopelessness and despair. We must do a better 
job of taking this generational challenge more seriously and invest the 
resources and legitimacy in efforts to promote better understanding 
among prospective leaders and publics.

    The Chairman. Thank you very much, Mr. Miller.
    Let me recognize Senator Biden who has a question because 
he has an immediate appointment. Senator Biden.
    Senator Biden. Mr. Miller, you are as bright as your 
father. I am impressed.
    I have one question. I have a lot of questions actually, 
but the chairman is kind enough to let me ask this one 
question. The North Korean Ambassador is in town, which is 
rare, and there is an agreement I made to speak to a group 
upstairs here in just a moment. I apologize for leaving.
    Dennis, this will not surprise you. It may hurt your 
reputation. I agree with you completely, as usual here, in 
terms of the first incremental thing that has to occur. Nothing 
in private with Arafat matters. I have not been as deeply 
involved as you, but the chairman and I have been around doing 
this for over 30 years now, and I have seen nothing--nothing 
ever--that happens in private unless he believes there is going 
to be--and it is not just him, but we will focus on him for a 
moment.
    What is your sense of whether or not this administration--
and the reason I was not here for the beginning of your 
testimony is I was in the back making this same exact point 
privately to the previous witness. What is your sense of this 
administration's view that, among other things, the Europeans 
must communicate directly to Arafat their conditions, if you 
will?
    And two, what is your sense of where the other Quartet 
members are in terms of their calculus as to whether they 
should or should not directly communicate what we have talked 
about to Arafat?
    And third, what is your sense of the degree of leverage, if 
any, we have with our European counterparts in the Quartet to 
encourage them to take this, what would be uncharacteristic 
action relative to Mr. Arafat? Three parts of the same question 
actually.
    Ambassador Ross. I got it. As you can see, Aaron and I 
bring no passion to the subject.
    Senator Biden. You bring a lot of light, though, both of 
you.
    Ambassador Ross. The administration I think is in fact 
communicating with the Europeans asking them to convey this 
message. I think that is a fact. Where it breaks down is a 
difference in view of Arafat. I am afraid that the other 
members of the Quartet, come November 3, will say, you know, 
what? We tried it without Arafat. You see it is a mess. 
Therefore, we have got to go back to him. So the kind of threat 
that you were suggesting should be made where you pick up the 
phone and you say, look, if you do not do this, you get no more 
support from us. We are going to cutoff all money and we are 
going to say this publicly. They are not saying that. They go 
to him in private. They say you should do this. There is never 
a consequence. As long as he knows there is not a consequence, 
then he is not going to change course.
    What I am suggesting now is public postures on this can 
make a difference because you see what is happening----
    Senator Biden. I agree with you completely, but why is it--
I have had these conversations with the heads of state 
literally, not figuratively, of the countries in the Quartet, 
this literal conversation. A year and a half ago, I had the 
same discussion relative to Abu Mazen and their continued 
support for Arafat financially while Abu Mazen was out there 
flipping. And I get a blank stare. All I would get back, 
whether it is at the Foreign Minister level, Defense Minister 
level, parliamentary level, or occasionally at the head of 
state level, is our skewed policy. That is all I get back.
    I never get a response that says, well, that is a good idea 
or a bad idea for the following reasons. I get the generic 
response, doctor, that you gave and I am not disagreeing with, 
that look, it is not all Arafat. He is the only one there. He 
is the choice of the Palestinian people and we should not 
interfere. I get non-answers.
    Ambassador Ross. Look, I think among the Europeans there 
has been what only can be described as a kind of political 
correctness when it comes to Arafat. He is the embodiment of a 
national liberation movement. The Palestinians are perceived as 
the victims. By the way, they are the victims, unfortunately, 
largely the victims now of what he is doing. But they have been 
the victims historically. There is no doubt about this. But 
there is a built-in sympathy.
    If you go back to first assumptions between us and the 
Europeans, basically--it is an oversimplification, but I am 
doing it for effect--we tend to look at the conflict through 
the lens of the absence of the real acceptance of Israel, which 
therefore justifies terror against it in the eyes of the Arabs. 
The absence of the moral legitimacy of Israel makes it 
difficult to justify compromise and makes it easy to justify 
terror and violence. So we see that and we say you have got to 
address that.
    The Europeans have a way of looking at this and they see it 
not through that lens, but through the lens of the Palestinian 
victimhood. And they say, look, the issue is the Palestinians 
are victims, and when you end the occupation, everything will 
be fine. They pay a kind of lip service to the issue of Israeli 
security. They say, yes, Israel should have security, but that 
is it. It is a slogan.
    So there is a divide there and there is a kind of political 
correctness that gets reflected in their approach.
    The fact that Palestinians themselves are expressing, as I 
said, unfortunately the only way they have right now, their 
real disenchantment with the current situation gives us a 
basis.
    There is one other point. You asked what could give us the 
means to make a difference. There is a paradox here. When I was 
negotiating, the Europeans used to always come to me and they 
used to say, you got to cut us in. And I would always say, I am 
not keeping you out. It is the Israelis and the Palestinians 
who are keeping you out because they do not see you having much 
effect.
    The last 3\1/2\ years, you have had an administration that 
basically gave them a perfect opportunity to come and play a 
fundamental role because the administration was not. Now, they 
found out they could not because basically they are not able to 
affect Israeli behavior, and the Palestinians know that as 
well.
    Now, the paradox is that the administration's readiness to 
play an active role is a lever. If Europeans want us to be 
involved--and they do--then I think one of the things we say is 
here is what we need from you. I would like to see the 
administration use that lever, and I have not seen them use it 
as much as I would like to see them do it.
    Senator Biden. Thank you very much. Thank you, Mr. 
Chairman, for allowing me to go out of order. I thank the 
witnesses.
    The Chairman. Thank you, Senator Biden.
    Senator Chafee, do you have a question?
    Senator Chafee. No. I am good. Thank you.
    The Chairman. Very well.
    Let me begin just by sketching what you all know because 
you are veterans of the trail in terms of American diplomacy. 
Many commentators have indicated that the United States foreign 
policy began anew after 9/11, 2001. There were fairly large 
sections of the world in which we had Ambassadors and we had 
interests, but in terms of extensive activity, this had fallen 
off in large part because of disinterest among the American 
people. In fact, one can trace, sometimes simplistically, back 
to Somalia and the abrupt withdrawal of Americans from that 
area, or even from Haiti in our own hemisphere, as times in 
which public opinion by and large seemed to be saying that 
people are going to have difficulties, and they have had them 
historically for a long time. But the thought that the United 
States should be involved in nation-building, or attempting to 
adjudicate these disputes, attempting to intervene boldly, is 
interesting for people interested in foreign policy like 
ourselves. We hold hearings and discussions about this, but my 
constituents say, we are real people. We are doing our work, 
raising our families, farming, manufacturing, and that is what 
we are about. Leave us alone. The taxation upon us is 
substantial as it stands. If you get us into wars, and we lose 
lives, and we lose our young people, and we become 
disillusioned, and so forth, that is a bridge too far.
    Now, bit by bit, perhaps because of our involvement in 
NATO, as difficulties occurred in the Balkans, we began to edge 
up to the shore again, only very reluctantly. I can recall, as 
you can, taking trips on behalf of the administration in a 
bipartisan way, visiting with people in the area, trying to 
establish what might be doable. Europeans were unwilling to 
assume the responsibilities we thought they would. The first 
George Bush indicated with relief that Europeans were prepared 
to take care of the situation in the former Yugoslavia, but 
ultimately they were not. They said, we cannot. It comes down 
to the United States. This is a point which many of you made 
today in one form or another. We cannot make it. If NATO and 
Europe and the rest of us are to have a better time, you are 
going to have to intervene and do so with a good bit of 
resources, including personnel at risk.
    Now, I do not want to trace things unduly country by 
country, but this has been a very difficult process for the 
American people and for the Congress.
    Suddenly after 9/11, within 2 weeks, Secretary Powell comes 
to members of this committee, meeting up in S. 407, and says, 
you have to lift immediately all the sanctions against India 
and Pakistan. Members who had been busy debating this for a 
long time, and levying sanctions because of the military 
dictatorship, or because of nuclear weapons-building, or very 
valid reasons, said, all of them, and forever? And the 
Secretary said, yes, both. It is a new situation. Then he goes 
through a list of other new situations.
    This is a radical readjustment. No way that that could have 
occurred, the repeal of all of this in one afternoon, or the 
next week, or so forth, without the threat that had come to our 
country, and the actuality of loss of life and institutions.
    Now, I mention this because in the case of the Israeli-
Palestinian situation, there have been Americans--you are among 
them--consistently all the way through, who have said this is 
very important. America has to be involved. America has to be 
credible. Other people may not stay the course, but we must. 
And by and large, that has stuck through several 
administrations, although it has not called for American troops 
to invade the area, to occupy. We have not been involved in 
physically bombing the territory, killing people, and 
destroying institutions. The thought has always been that 
diplomatically, given the authority we have, we could make a 
difference in the situation. Indeed, perhaps some day we will. 
You are trying to outline, at the behest of this committee 
today, how we might do so fairly promptly.
    As we started the hearing, we said that we did not accept 
the beginning of the year. This is just a year of time out. We 
had Secretary Powell, among others, testify. You, Ambassador 
Ross, were there for our first go at this early in the year. It 
was an important hearing, in which many people on our committee 
and perhaps in the rest of our body gained insights.
    I mention all this because we are now at a point in 
American life in which many Americans would say, what are our 
priorities? One clearly is still the war against terrorism, the 
fact that people who were educated and organized somewhere else 
in some other country came to the United States and attacked us 
and destroyed Americans and property here. Second, we are 
worried in an existential way about the intersection of these 
people with weapons of mass destruction. We do not know which 
form this might take, whether piecemeal with a dirty bomb, or 
with a nuclear weapon, or in some unusual formulation, but 
nevertheless a lot of people would be killed in one incident, a 
huge number in this country, quite apart from anywhere else. So 
these are high objectives.
    We have had hearings in the last month in this committee in 
which we have explored North Korea and Iran, to take two. In 
both cases, there is clearly a will to build weapons of mass 
destruction, a question of how far those situations have gone, 
and a question of how far they will go. Do they complete the 
task? And do we take military action in the meanwhile, or do we 
not? Do we get allies on board or are they anywhere around? 
This is not clear. Given the stretch of American forces in 
Iraq, the re-upping of reserves who have gone home because we 
are so dependent upon reserves now, quite apart from permanent 
personnel, how do you handle the situation? These are basic 
issues, quite apart from the many other issues of American 
foreign policy. We have very great stakes in terms of security.
    Now, it is on top of all this that we come back today to 
Israel and Palestine. As you pointed out, Ambassador Ross, you 
said there is no peace process now. There is constant 
deterioration. Well, that is not very promising.
    Senator Biden, in his questioning, asked, fair enough, how 
active is this administration? How busy are they with this? 
Well, the answer was that they are busier some days than 
others, and on some occasions they are probably wondering 
literally what kind of intervention would make any difference 
that day.
    Having said all that, our committee remains optimistic that 
there is a way, that in fact American leadership is important, 
that American people will support constructive efforts.
    You have used, and I have, too, the word ``existential'' 
today. I have a nagging feeling, as I listen to these hearings, 
that a great many persons--I will not say nation states--but 
persons, groups, cells, whatever--in the vast Middle East have 
not accepted for one day the thought that Israel should be a 
state and should be there. This may be the case, and this may 
be widely felt. Maybe it is not. It may be a small minority 
viewpoint, overwhelmed by a vast amount of good will, which is 
not observable. Is the situation one in which we are going to 
climb up the hill every year, about this time, simply because 
in an existential way there are a lot of people who say Israel 
does not deserve to be here? They ought to be wiped out of 
here, and by golly, we have the staying power, the ethic, the 
morals, the religion, whatever, that says they ought to go. And 
the Israelis say correspondingly we are not going. Believe us. 
We will arm ourselves. We will gain the allies that are 
required. We are going to be here.
    Now, we can dance around forever, debating withdrawal or 
not withdrawal, the conditions or so forth, but on this basic 
issue, how do we come to grips with this? We work fine in terms 
of a broad sense. The President is talking about 
democratization of the Middle East and programs that might 
help, as well as changes in the public school system so that 
there will not be reliance by default on the madrassa schools, 
and a lot of other things that may make a difference despite 
great resistance from Arab countries that declined to come to 
Sea Island, and that say, you are preaching to us.
    So we try to devise ways. I have offered the thought of a 
large trust fund in which people can make applications for 
support for democracy and so forth. Maybe something of this 
sort might be constructive. But this is tough going in terms of 
a broad group of people out there who may or may not want to 
have peace, who may not support for a moment the diplomacy of 
any of the three of you.
    Can any of you offer some sustenance to keep our hearings 
going, in particular as to why there could be a change in this 
predicament?
    Mr. Miller.
    Mr. Miller. Yes, let me try. But I think it requires 
abandoning certain illusions, and I would argue that I was at 
the top of the list in harboring the first.
    We think in terms of administrations. That is the nature of 
our political clock, and that is completely understandable. But 
I think the perspective from the region is not a perspective 
measured in administrations. It is a perspective measured in 
generations. And in an existential conflict, literally the 
stakes are physical and political survival of small tribes, and 
in the words of one great Lebanese historian, great powers 
meddle in the affairs of small tribes at their own risk.
    This notion that we have a generational conflict which is 
going to take years to resolve is something we as Americans 
resist instinctively. I resisted it. I am sure Dennis did for 
the 20-plus years we were engaged in this effort. But it is a 
reality. The Arab-Israeli conflict evolved in phases over time. 
It can be resolved in my judgment, but only in phases over 
time. That does not mean time is an ally. It is an adversary. 
It is an absolute adversary, but we have to be in this for 
strategic reasons with a constancy, a continuity, and a 
commitment that takes into account the generational nature of 
change.
    One additional comment. Because it is a generational 
conflict, we need to start thinking much more seriously and 
much more creatively about what is happening to the young 
generation, the so-called next generation. We are in danger of 
losing an entire generation of young Arabs, Israelis, and 
Palestinians to the forces of hopelessness and despair that 
have now defined their lives. Building leadership, the 
organization that I am running is a premier example of this, 
trying to reach out, doing transformational diplomacy, not just 
transactional diplomacy, not just conventional diplomacy. But 
you want a strategy? You do transactional diplomacy. The United 
States gets involved, but you also do transformational 
diplomacy. You invest. You legitimize these people-to-people 
programs. You develop leaders and you develop public 
constituencies. It will not solve the Arab-Israeli conflict 
overnight, but it will create an environment in which perhaps 
the chances of resolving it will increase.
    The Chairman. I appreciate that answer very much, and I 
want to hear each of the rest. But let me just say that I 
approach it on the level of our inquiries about why the United 
States is disliked so much by so many people in the area. 
Whether it is the Pew Poll or others, country after country, 
there is very little going for us, quite apart from the feeling 
about Israel. This really demands a public diplomacy response 
with something much greater than that. You were talking about 
developmental change, or hope for the youth over a long period 
of time. This might be a kind of bold thinking that will not be 
specific to Israel and Palestine, but I would agree with you 
that it is pretty fundamental to maintain perspective having a 
sense over generations of existential change in light of the 
fact that the countries are likely to be there.
    Yes, Dr. Said.
    Dr. Said. Thank you.
    I once was asked in Israel--I was on a visit in Tel Aviv 
University and I was asked when really you guys, the Arabs, 
accept us, accept the Israelis. What we have is an arrangement. 
We have peace. We have settlements, but accepting is a very 
psychological, historical, emotional reality.
    My answer was the following. I said when we both meet two 
conditions. One, when Israel stops being an exceptional state. 
When we think of Israel like we think of Libya or Qatar or 
whatever, many of the Middle East states are new, and we never 
thought if Libya is a state or not. That needs two efforts, one 
on our part not to consider the Israelis as exceptional in 
history and having a state and so forth, but also when the 
Israelis themselves think they are not exceptional. They have 
only a security problem. They only need nuclear or other 
weapons. They have to be dealt with on completely different 
standards.
    I have been educated here in the United States, and I know 
the legal powers of the judiciary, of the codes. The legal 
thinking in this country is very big and powerful. But I found 
listening to International Court of Justice with a little bit 
of scorn and disdain, that is exceptional. That is very 
exceptional. If any court that said what it said regarding 
something in Costa Rica or in Mali or wherever, I think the 
American listening to the resolution will be different. That is 
the point I am making, Israel to stop being exceptional.
    No. 2, I told them you will be loved in the region when the 
region knows that it will be better off by your existence than 
your absence. And I gave a reason. Israel is a very unique 
experience. The only closest historical example to it is the 
case of Singapore, which you have Chinese settlers who moved 
from the Chinese mainland, established a state that was part of 
Malaysia, but then became divided and created it. It is a 
Chinese island in a kind of Malay, you know, like being in the 
Arab world. But Singapore over the years, because of its 
innovation, because of its economic vitality, actually was 
leading in many ways the good things in Southeast Asia.
    Those are the two conditions, and I believe they are 
possible.
    I cannot leave the microphone without just one note on why 
they hate us. I do not think the people in the region hate the 
United States. They have a major problem with the legitimacy of 
what it is doing. We have an irony in the Middle East. The 
irony in the Middle East is that we have new states with new 
institutions. Legal traditions are not big yet. But we have a 
belief in the order, in the legitimacy of the order. It is 
being disappointed. I believe that is characterized. Now, 
people see American movies, their first choice of emigration. 
At least among the elite, who scorn many of the United States' 
action, but it is the issue of the legitimacy.
    And I believe basically that many of the United States' 
actions are legitimate in many ways, but you have a serious 
problem always if we are not sure in the Arab world, in 
particular, that we are listening to the United States. 
Sometimes, at least strongly probably, we are hearing the echo 
of somebody else.
    Thank you.
    The Chairman. Thank you, doctor.
    Ambassador Ross.
    Ambassador Ross. I will make, I guess, three points in 
response.
    First, to deal with the essence of your question, which 
when you go through it, you are basically asking why should it 
matter to us. We have got a lot of other things that confront 
us that are more immediately threatening. Why should it matter 
to us?
    We will take a step back. The first thing we have to bear 
in mind is that the measure of diplomacy is not always what you 
achieve. Sometimes it is what you prevent, and a more active 
diplomacy, if it prevents a war, is keeping a problem that 
could confront you later on off of the immediate perspective 
that you have in mind.
    Second, one of the things that is very interesting in the 
polling right now among Palestinians and Israelis is the 
parallelism. Both sets of polls are schizophrenic. With 
Palestinians, you will see they want peace, they want an end to 
the violence, and at the same time, the same percentage, 75 to 
80 percent, will support a continuation of suicide attacks. How 
do you explain it? On the Israeli side, you find up to 75 
percent want to get out of all the settlements, not just the 
unilateral, and at the same time, they will say we are not 
being tough enough with the Palestinians. Both are angry and 
fearful and disbelieving in the other, and yet both want the 
conflict over.
    The mainstream of the Palestinians would like to see this 
conflict end, and I do not just say that based on the polling. 
I say it on what has been a very long experience dealing with a 
very wide spectrum of Palestinians.
    In the rest of the Arab world, I think this issue remains a 
source of grievance. It is an injustice in their minds that has 
not been addressed and it should be. But the fact is if the 
Palestinians were satisfied, they would be fine. They would be 
fine to say it is over. We are glad it is over. They are not 
looking to perpetuate it.
    There is a concern about the effect of the last 3 years, 
and I think Aaron is absolutely right on this point. If you 
look at the youth on both sides right now, it is very 
disturbing. When I talk to some of the younger Fatah activists 
who were responsible for the first intifada, they tell me one 
of the reasons they are motivated now to try to end this is 
because they are afraid of what is happening to the next 
generation, that they are losing sight of what is actually in 
the Palestinian interest, which is living in peace with the 
Israelis. So the longer you let this drift, the more you are 
going to face that problem, and the more you face the problem 
of the next generation changing, the more it will infect the 
rest of the region and make that sense of grievance worse. And 
this gets me really to the last point.
    If tomorrow the conflict were to disappear, we would still 
have a war on terror, but we should not kid ourselves. In the 
Israeli-Palestinian conflict, the Palestinian sense of 
grievance is an evocative issue in the Arab world. It certainly 
mobilizes passions. One problem that we have today is we do not 
look like we care about it. The more you look like you 
disengage, the more it looks as if you just do not care. So 
here is something that they care about and we do not look like 
we care.
    Diffusing it, because I do not believe you can solve it 
right now--I think you have to diffuse it before you can solve 
it--will at least take away one of the recruiting tools that is 
used that plays upon the anger that exists in the region. You 
have got a region with a lot of angry younger people. This is 
one source of the anger but not the only one. If the conflict 
disappeared tomorrow, you would still have anger. But at least 
you take away one of the symbolic recruiting tools, and if you 
reduce the recruiting tools for those who are engaging in 
terror, we are going to be better off.
    The Chairman. Well, I appreciate those responses, as well 
as the other remarkable oral comments that you made, in 
addition to the written testimony that will be published in 
full, as I indicated early on at the outset of this hearing.
    I believe that the hearing was important not just for those 
of us who are privileged to be here as members of the 
committee, but likewise as an indicator, much as you have just 
expressed, that this is a high priority for America. We are 
doing the very best we can to think through as Americans how we 
can be most constructive. We are doing so in the midst of a 
political campaign in which many members of the committee are 
engaged. One of our members is a candidate. So this is not 
merely a lofty academic subject. There are important 
stakeholders, and you are clearly among them by virtue of the 
commitment in your lives.
    We thank you very much. The hearing is adjourned.
    [Whereupon, at 12:21 p.m., the committee adjourned, to 
reconvene subject to the call of the Chair.]

                                 <all>

</pre></body></html>
